<html>
<title> - EVALUATING FEDERAL AND COMMUNITY EFFORTS TO ELIMINATE VETERAN HOMELESSNESS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]


     EVALUATING FEDERAL AND COMMUNITY EFFORTS TO ELIMINATE VETERAN 
                              HOMELESSNESS

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                      THURSDAY, DECEMBER 11, 2014

                               __________

                           Serial No. 113-96

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


         Available via the World Wide Web: http://www.fdsys.gov
         
         
                               ___________
                               
                               
                        U.S. GOVERNMENT PUBLISHING OFFICE
96-139                      WASHINGTON : 2015                        
                     
________________________________________________________________________________________                     
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0a6d7a654a697f797e626f667a2469656724">[email&#160;protected]</a>  
                   
                     
                     
                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               MICHAEL H. MICHAUD, Maine, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Minority Member
    Chairman                         CORRINE BROWN, Florida
DAVID P. ROE, Tennessee              MARK TAKANO, California
BILL FLORES, Texas                   JULIA BROWNLEY, California
JEFF DENHAM, California              DINA TITUS, Nevada
JON RUNYAN, New Jersey               ANN KIRKPATRICK, Arizona
DAN BENISHEK, Michigan               RAUL RUIZ, California
TIM HUELSKAMP, Kansas                GLORIA NEGRETE McLEOD, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
PAUL COOK, California                TIMOTHY J. WALZ, Minnesota
JACKIE WALORSKI, Indiana
DAVID JOLLY, Florida
                       Jon Towers, Staff Director
                 Nancy DoLan, Democratic Staff Director

Pursuant to clause 2(e)(4) of rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.
                           
                           C O N T E N T S

                              ----------                              

                      Thursday, December 11, 2014

                                                                   Page

Evaluating Federal and Community Efforts to Eliminate Veteran 
  Homelessness...................................................     1

                           OPENING STATEMENTS

Hon. Jeff Miller, Chairman.......................................     1
    Prepared Statement...........................................    57
Hon. Michael Michaud, Ranking Member.............................     5
    Prepared Statement...........................................    58

                               WITNESSES

Baylee Crone, Executive Director, National Coalition for Homeless 
  Veterans.......................................................     6
    Prepared Statement...........................................    60

Steve R. Berg, Vice President for Programs and Policy, National 
  Alliance to End Homelessness...................................     8
    Prepared Statement...........................................    63

John F. Downing, Chief Executive Officer, Soldier On.............     9
    Prepared Statement...........................................    66

Phil Landis, President and Chief Executive Officer, Veterans 
  Village of San Diego...........................................    11
    Prepared Statement...........................................    68

Casey O'Donnell, PsyD, Chief Operating Officer, Impact Services 
  Corporation....................................................    13
    Prepared Statement...........................................    69

Jon Sherin, M.D., Ph.D., Executive Vice President for Military 
  Communities and Chief Medical Officer, Volunteers of America...    15
    Prepared Statement...........................................    72

Lisa Pape, Executive Diretctor, Homeless Programs, VHA, U.S. 
  Department of Veterans Affairs.................................    41
    Prepared Statement...........................................    86

    Accompanied by:
        Thomas O'Toole, Acting Director, National Center for 
            Homelessness Among Veterans, U.S. Department of 
            Veterans Affairs
Jennifer Ho, Senior Advisor on Housing and Services to the 
  Secretary, U.S. Department of Housing and Urban Development....    43
    Prepared Statement...........................................   101

Hon. Keith Kelly, Assistant Secretary of Labor, Veterans' 
  Employment and Training Service, U.S. Department of Labor......    45
    Prepared Statement...........................................   109

                             FOR THE RECORD

Friendship Place.................................................   114
National Rural Health Association................................   122
United States Interagency Council on Homelessness................   135
Vietnam Veterans of America......................................   143

 
     EVALUATING FEDERAL AND COMMUNITY EFFORTS TO ELIMINATE VETERAN 
                              HOMELESSNESS

                              ----------                              


                      Thursday, December 11, 2014

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 10:05 a.m., in 
Room 334, Cannon House Office Building, Hon. Jeff Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Lamborn, Bilirakis, Roe, 
Denham, Benishek, Coffman, Wenstrup, Walorski, Jolly, Michaud, 
Brown, Takano, Brownley, Titus, Kirkpatrick, Ruiz, Kuster, 
O'Rourke, and Walz.

           OPENING STATEMENT OF CHAIRMAN JEFF MILLER

    The Chairman. If I can take chairman's prerogative just a 
minute. I appreciate the members' indulgence. I have already 
apologized to the ranking member for not being able to be at 
the reception that was held in his honor that Ms. Brown hosted 
for him. I was, unfortunately, attending a funeral in The 
District.
    But, you know, in the nature of this business, we see 
members come and we see members go. Sometimes some members are 
a little bit harder to say goodbye to because they have been an 
integral part of what has been going on in this process. So I 
would say that those of us who have been lucky enough to have 
worked with Mike Michaud, the ranking member, inside this 
committee and outside, will always remember him for his jovial 
nature and his constant willingness to bring both Democrats and 
Republicans together. This committee, I think, has been better 
because of Mike's leadership.
    The work that he has done in this very room provides a 
perfect illustration of Mike's commonsense, bipartisan approach 
to getting things done. So, in an era that has been plagued by 
hyperpartisanship, Mike deserves great credit for his work to 
keep the House Committee on Veterans' Affairs one of the few 
places that is virtually immune from the way Washington has 
come to work. Our committee has lead the charge on uncovering 
the largest scandal in healthcare issues in VA history. During 
that time, Mike has been relentless in his pursuit of the truth 
in getting to the bottom of the all of the questions that our 
committee has answered.
    This past summer, when it was time for the Senate and the 
House conference committee to get together to reach a deal on 
our reform bill, Mike played an integral role to bringing both 
sides together to find common ground and that is why that piece 
of legislation was able to pass by such a wide margin in both 
the House and over in the Senate as well.
    He is as serious as I was about seeing meaningful reform at 
the VA. His leadership was critical to helping all of us 
achieve our goals. I have served on this committee with Mike 
for over a decade now. I think you could probably count the 
number of committee hearings he has missed on one hand, and I 
think that is a testimony to his dedication to those that he 
serves and the passion that he has. Mike is a passionate, 
pragmatic member of this committee as anyone who has ever 
served on it has seen. America's veterans are losing a powerful 
voice in Washington, and this institution is saying goodbye to 
one of its finest Members.
    So, Mike, thanks for your years of exemplary service to our 
committee, this Congress, to our Veterans, and to this country. 
I know I speak for everyone here saying you are going to be 
sorely missed.
    Do have any comments?
    Mr. Michaud. Thank you very much, Mr. Chairman, for that 
very kind and very generous remarks. I really appreciate it 
very much. As you know, this does mark my last hearing as 
member of this committee and this Congress. Although I am 
looking forward to the opportunity and the challenges that lie 
ahead of me, the years ahead, I definitely will miss this 
committee and the work that this committee has done over a 
number of years.
    And to the incoming ranking member, Ms. Brown, I know you 
have spent 22 years on the committee. You have been a strong 
voice for our veterans, you know, here in this committee. I 
hope that you enjoy the ranking membership position as much as 
I have over the last, you know, several years.
    And to my fellow Democrats, I want to thank you as well. I 
can't thank you enough for the work that you have done on this 
committee. You have made my job as a ranking member a very easy 
job, working together, particularly during these turbulent 
times over the last couple of years dealing with the VA. And I 
appreciate the energy and the excitement that you brought on 
the Democratic side. And I hope you will continue to with your 
efforts in the next Congress in the years ahead.
    And to our Republican colleagues, I want to thank you very 
much. I have been on several CODELs with a lot of you over the 
years. I really appreciate the efforts that you have done to 
make this committee a bipartisan committee, and I cherish the 
friendship and the camaraderie that we have had over a number 
of years. And this committee definitely is a special committee. 
And although there are times that--when we differ on 
perspectives and how to best serve our veterans, we work 
together without regard to party. And that is what it is all 
about.
    And I hope that the American people will look at this 
committee as a model and look at you, Mr. Chairman, as a leader 
and insist that their representatives do what we have done here 
over a number of years in this committee working together. And 
we can't do it alone. I want to thank Nancy and my staff on 
this side of the aisle for your tireless effort. I want to 
thank Jon Towers and the Republican majority staff as well. The 
committee staff has done a phenomenal job over the last couple 
of years. And I really appreciate the work that you have done, 
especially the administrative staff. You keep everything on 
time and make sure that we have what we have to do, you know, 
as well. So I want to thank you very much.
    And, in closing, Mr. Chairman, I really do appreciate our 
friendship over the years. And as you mentioned, you know, we 
meet a lot of individuals here in Congress. A lot we consider 
friends. There are some we consider friends in a more, you 
know, special way. And I consider you a very good friend. We 
have switched roles over the time as Members of Congress; so me 
being chair, you being ranking member and visa vera. And I 
really appreciate that, your openness, your willingness to 
listen to me as a minority member and as a ranking member and 
move forward in that regard. So I want to thank you very much.
    And this time, in closing, I know you have talked on the 
House floor, you have talked in this committee about coming to 
the State of Maine, how you want to be able to shoot a moose. 
Unfortunately, I was not able to win the governorship. But, 
hopefully, you will not forget that--and I will not forget your 
efforts to try to shoot a moose in the State of Maine. So I do 
have something I would like to present to you, Mr. Chairman.
    The Chairman. That is cool.
    Mr. Michaud. Actually, in Maine, in the woods, moose, they 
do lose their antlers. And I have a constituent actually that 
goes through the woods to try to get moose antlers to carve out 
an eagle head in the moose antler. So this is the half of a 
moose antler.
    Mr. Chairman, I would like to present it to you in your 
drive to actually get a full moose in the State of Maine. And I 
would like to present this to you as a parting gift for your 
friendship, your loyalty, but, more importantly, your work that 
you have done for veterans over a number of years, putting 
aside partisan politics to do what is right for our veterans. 
So here is a freedom antler with an eagle from the State of 
Maine. So----
    The Chairman. Thank you, Mike, very much. If you ever go to 
Maine, you have to drink the state drink of Moxie when you come 
there. So it has been a great, great run. And I thank you.
    I also want to say thank you to the departing members of 
our committee that won't be returning to this committee and we 
are going on to other assignments. We appreciate your 
diligence, especially over the last couple of years and 
understand that your work is just the beginning. We have a long 
way to go working with the Department, and I had a great 
conversation with the Secretary a couple of nights ago. We were 
on the same flight as I was leaving Washington. I do believe he 
is committed to making some changes, but he has got a lot of 
work to do. We are going to try to help him in every way we 
can.
    So, with that, the committee will come to order. We are 
going to have a hearing this morning--it is actually the last 
hearing of the 113th Congress--evaluating Federal and community 
efforts to eliminate veteran homelessness. At this time of 
year, perhaps more than any other, the thought of anyone, 
particularly anyone who has served our Nation in uniform, 
without a home or a safe place to sleep is unconscionable and 
heartbraking. Unfortunately, homelessness or the constant 
threat of it has become a way of life for far too many of our 
Nation's veterans.
    In 2009, the Department of Veterans Affairs initiated a 5-
year plan to eliminate veteran homelessness. As that deadline 
fast approaches, I am pleased to report that the VA has 
succeeded in reducing veteran homelessness by approximately 33 
percent. Yet, as long as a single veteran struggles with 
housing instability or homelessness, our work remains.
    Troublingly, a VA Inspector General report issued just last 
week found that VA's national call center for homeless veterans 
missed well over 40,000 opportunities to link homeless veteran 
callers to VA medical facilities and to ensure that they 
received their needed services. Some of these missed 
opportunities resulted from the unavailability of call center 
staff during peak business hours when veteran callers were 
transferred to answering machines, instead of call center 
employees. I think you will agree this is unacceptable for any 
government program, but particularly--particularly a population 
that is as vulnerable as this one is, a population that, for 
some, the ability to merely make a phone call is a logistical 
challenge. I look forward to hearing today how VA is correcting 
the serious deficiencies that the IG found and holding those at 
fault accountable for their management or mismanagement and 
oversight failures.
    Unfortunately, the call center is just one concern that I 
have with VA's homeless programs. Based on the information from 
the VA, the Department has roughly 20 different programs 
designed to get homeless veterans off the streets and provide 
them with housing, healthcare, and employment assistance. The 
Departments of Housing and Urban Developments and Labor also 
have programs aimed at achieving the same goals. So I am 
encouraged to see the level of cooperation between these 
government agencies.
    I understand that homeless veterans are a varied and 
complex group, and one program alone cannot effectively treat 
the unique needs of all of them. However, the plethora of 
different programs that are in place today beg the question of 
whether significant overlaps exist that both waste taxpayer 
money and limits the effectiveness of any single program's 
ability to effectively care for a veteran that may be in need.
    I also have concerns about the increasingly insular focus 
the Department is placing on permanent housing. Except for the 
very few veterans for whom housing instability may be a 
lifelong concern due to underlying health conditions, the 
foremost goal of every program serving homeless veterans should 
be providing a bridge to an independent, a purpose-filled life, 
not a permanent, government-sponsored home.
    Over the last several years, the American taxpayer has 
devoted record amounts of their tax Dollars to eliminating 
veteran homelessness, with funding for targeted homelessness 
programs increasing by almost 300 percent and funding for 
healthcare for homeless veterans increasing by more than 80 
percent since fiscal year 2009. Despite this considerable 
investment, veteran homelessness will never be completely 
eliminated so long as veterans struggle with the underlying 
health conditions and are in an economic crisis.
    Quickly and effectively diagnosing and treating those 
underlying health conditions and providing veterans who are 
able with job training and placement services is critical to 
empowering homeless veterans to successfully re-integrate into 
stable community environments. To truly honor and respect the 
service of a homeless veteran is to provide him or her with a 
pathway to a life of dignity and self-sufficiency, not just 
four walls and a roof.
    With that, I now yield to the ranking member, Mr. Michaud, 
for an opening statement.

    [The prepared statement of Chairman Jeff Miller appears in 
the Appendix]

      OPENING STATEMENT OF RANKING MEMBER MICHAEL MICHAUD

    Mr. Michaud. Thank you very much, Mr. Chairman.
    The VA's goal of ending veterans homelessness by the year 
2015 is an ambitious goal. A remarkable progress has been made 
by the VA to meet this challenge, but there is much more that 
still has to be done that we have to focus on.
    As we all realize, VA cannot meet this goal alone. It will 
take the concerted effort and actions of the Federal Government 
and the assistance of organizations and individuals all across 
the country. And I look forward to the hearing today so that we 
can evaluate the effectiveness of this effort and applaud the 
real progress that has been made.
    According to reports, homelessness among veterans has 
declined by 33 percent to roughly 50,000 since 2010. This is an 
accomplishment we all can be proud of, but we have still a lot 
of work to do in dealing with our homeless veterans. And it is 
simply unacceptable that any of our veterans do not have a roof 
over their head. I am also concerned that we are not taking 
adequate steps to address special populations, such as homeless 
woman veterans and those who need serious and sustainable 
assistance.
    Today's hearing provides us with the opportunity to 
continue this discussion. It provides us the opportunity to 
discuss how we define the goals of ending veterans 
homelessness, the resources needed for that, and work that 
remains to be done in the years ahead.
    And, with that, Mr. Chairman, I would ask for my full 
comments to be included in the record and look forward to 
hearing the panel's discussion this morning.

    [The prepared statement of Ranking Member Michael Michaud 
appears in the Appendix]

    The Chairman. Without objection, your statement will be 
entered into the record. I would ask the first panel, if you 
could, come and take your seat. As you are taking your seats, I 
will introduce everyone.
    Joining us on the first panel today is Baylee Crone, the 
executive director of the National Coalition for Homeless 
Veterans; Steven Berg, the vice president for programs and 
policy for the National Alliance to End Homelessness; John 
Downing, the chief executive officer of Soldier On; Phil 
Landis, president and chief executive officer of the Veterans 
Village of San Diego, of which several of us have had a chance 
to visit; Dr. Casey O'Donnell, the chief operating officer of 
Impact Services Corporation; and Dr. Jon Sherin, the executive 
vice president for military communities and chief medical 
officer of Volunteers of America.
    Thank you all for being here this morning to share your 
expertise.
    Ms. Crone, you are first up. You are recognized with your 
opening statement.

                   STATEMENT OF BAYLEE CRONE

    Ms. Crone. Chairman Miller, Ranking Member Michaud, and 
distinguished members of the House Committee on Veterans 
Affairs, thank you for the opportunity to appear before this 
committee today. My name is Baylee Crone, and I am the 
executive director of the National Coalition for Homeless 
Veterans. On behalf of the more than 2100 community and faith-
based organizations NCHV represents, I would like to thank all 
of you for your steadfast commitment to serving our Nation's 
most vulnerable heroes.
    This testimony will focus on our understanding of the 
progress made to end veteran homelessness in this country, 
including efforts to match services to the needs of homeless 
and at-risk veterans through permanent housing, transitional 
housing, employment, and prevention initiatives.
    National declines in veteran homelessness since 2009 are 
without precedent, as we have heard this morning. The successes 
we have seen to date and our future successes rely on the 
strength of VA's front lines, the community providers, and VA 
case managers who fight the daily battle to do more, better, 
and faster. The momentum is on the side of rapid change, and we 
are closer than ever to achieving our mission of effectively 
ending Veteran homelessness. However, any veteran homelessness 
is not a moment. It is a moving target.
    Looking at one measure, the 2014 point-in-time count tells 
an important part of this story. On a single night in January, 
49,933 veterans were homeless. This 33 percent decline since 
2009 is more than a statistic. It represents a real measurable 
downward trend in homelessness among veterans. These 
significant drops happened as community organizations and VA 
medical centers have improved outreach and targeted their 
services to those with the most significant barriers. To make 
progress toward our mission, we must see drops in the point-in-
time count, but that is not the only aspect of change we need 
to see.
    Across the country, community organizations and VA partners 
are stepping in with the safety net and a hand up to self-
sufficiency and independence. We are fostering empowerment. We 
are halting cycles of abuse. We are educating and protecting. 
These activities may not show up in any official point-in-time 
count, but they are and will continue to being the actions 
protecting against homelessness for many veterans.
    The PIT count is a snapshot. Other data build out a more 
robust scene of the challenges we face in the road ahead. In 
2014, 80 percent of unsheltered veterans moved out of 
unsheltered status in 3 days. In that same period, over 50,000 
veterans achieved permanent housing through the supportive 
services for veteran families program, far outpacing the VA's 
goal of 40,000. These are some of the data points that show us 
that fuller picture. Veterans are engaging when they need help. 
They are moving rapidly off the streets, and they are 
successfully moving into permanent housing.
    The VA updated its homeless gaps analysis and launched the 
25 cities campaign to promote community-based solutions to 
ending veteran homelessness in high-need areas. The picture 
gains more clarity. Results are being meticulously and 
consistently tracked to improve targeting to meet specific 
local and individual needs. The system has improved, and it is 
working. At NCHV, we demand that individual needs match 
specific services. We do not have a homeless veteran 
population. We have individual veterans who are homeless and 
have specific and unique needs profiles to be addressed through 
a coordinated system of care.
    Wherever chronic, episodic, or at-risk homelessness exists, 
the VA and its community partners must be ready and armed. We 
can end chronic homelessness. We are already doing it through 
HUD-VASH and Housing First. We can functionally end episodic 
and recent homelessness. Rapid rehousing infrastructure, 
transitional housing, and income interventions are joining 
together to make this happen.
    We can get ahead of homelessness through prevention. SSVF 
serves more veterans and their families more cost-effectively 
every single year.
    The full picture is complicated, but it is lit up with 
hope. Ending veteran homelessness starts with the veteran, and 
people are complicated. Some individuals with complex needs 
profiles will be served by several programs. This does not mean 
that the services are being duplicated, but rather the 
organizations and programs are working together to address 
specific barriers to permanent housing. We believe in and will 
defend effective deployment of targeted resources to field 
research-based interventions when and where they are needed. As 
the number of veterans on the streets and in temporary shelter 
goes down, we will need to be more, not less, diligent in 
ensuring that we provide that hand up to those who remain on 
the streets.
    We will end veteran homelessness, but reaching that 
benchmark happens when the systems in place are ready and able 
to immediately meet a veteran's needs should he fall into 
homelessness or be at high risk. As we make progress, resources 
will need to be redeployed, not withdrawn. We believe a surge 
is still needed now, not because we set a goal for 2015 and 
want to check a box, but because we have the momentum now to 
make it happen for veterans. This requires full funding HVRP, a 
surge in SSVF resources, and maintenance of current eligibility 
for veterans served through VHA homeless grant programs.
    Thank you for the opportunity to present this testimony 
today. It is a privilege to work with this committee to ensure 
that every veteran in crisis has access to the support services 
they have earned through their service to this country. Thank 
you.

    [The prepared statement of Ms. Baylee Crone appears in the 
Appendix]

    The Chairman. Thank you, Ms. Crone.
    Mr. Berg, thank you for being here. You are recognized for 
your opening statement.

                  STATEMENT OF STEVEN R. BERG

    Mr. Berg. Thank you for having me. Thank you for all the 
members of the committee to come here. This is the end of this 
Congress today, it looks like, and I hope that this hearing 
will mark the beginning of a final push to achieve something 
very important in this country that is long overdue.
    I have a lot of wonky things I can talk about about 
homelessness. At the National Alliance, we make a point of 
being experts on what it takes to end homelessness. But I sort 
of feel like, for 5 minutes, I really need to make this point: 
Once in a rare occasion, our country has a chance to do 
something that is really great, and that happens on the even 
more rare occasion when people in leadership positions 
recognize that that is what they are facing, that they are 
facing that kind of opportunity. And that the appropriate thing 
to do is to put aside business as usual and instead come 
together and focus on what we can be doing to make this result 
more likely to happen.
    And if nothing else happens in this hearing, if no other 
message gets across, I hope people will leave with an 
understand that, when we are dealing with veterans 
homelessness, that is the situation we are facing. For way too 
long, veterans have been overrepresented among the homeless 
population. When modern homelessness first emerged in the 
economic crisis of the early 1980s, people would come back from 
Vietnam. A certain number of them were having a very hard time, 
and they became homeless in droves, and we let it happen. We 
didn't really understand what homelessness was all about then. 
We didn't know what the--what the right interventions were, but 
we didn't do anything to stop it. And since that time, veterans 
homelessness has been a bigger part of the problem than it 
should be. It shouldn't be any part of the problem.
    So, right now, we have, I think, what we have seen going 
beyond the numbers, just--a 33 percent reduction is an 
important thing. But that didn't--it is important to understand 
that didn't happen by coincidence, it didn't happen by luck. It 
happened because a lot of people have been doing the right 
thing, including people in this committee, have been doing the 
right thing to make it happen. So I want to spend a couple of 
minutes talking about why this is working and a couple--and 
then a quick rundown of what we need to do next.
    It is working for a couple of reasons. One, I think there 
has been leadership at the Federal level. I think the VA, after 
sort of skirting around the issue for a number of years, has 
embraced the idea that they are going to have to be the leaders 
on this. They can't look to anybody else. VA is going to have 
to be the leaders on this from the Federal Government's point 
of view.
    They have understood, also, however, that they need to work 
with many others within the Federal Government, with HUD, with 
the Department of Labor, with other departments, with nonprofit 
communities all over the country to make these things happen.
    The VA set up the National Center on Homelessness Among 
Veterans. This has been very important. A joint project with 
the University of Pennsylvania where there is some--at the 
University of Pennsylvania happens to be where some of the real 
experts on homelessness around the country teach there. Dr. 
Dennis Culhane, if any of you have never met him, if you can 
sit and talk with him about homelessness for a little while, 
you will feel like you are a smarter person than before you 
started talking to him. I guarantee it.
    The VA has put the right kind of program models in place 
with the help of Congress. Congress has authorized new 
programs, both more intensive programs that are more about 
long-term housing and supports like the HUD-VASH program. But 
then, as Mr. Miller started by saying, most homeless veterans 
don't need long-term intensive help. They need short-term help 
to deal with a short-term crisis, and that is what this rapid 
rehousing model and the SSVF program are all about. 
Tremendously effective.
    And, finally, communities are seizing control of this issue 
and taking it upon themselves, through the leadership of 
mayors, through the leadership of veterans healthcare 
directors, to use the tools that Congress and the VA have made 
available and really put them to work and try to get results. 
VA is helping with that with various technical assistance 
initiatives. Other people need help as well. We are trying to 
do our part at the National Alliance to End Homelessness to 
spread that information.
    There is some work that Congress needs to do. I have 
outlined that in my written testimony. There are some short-
term fixes to a couple of the programs that would be very 
important. We are going to have a longer-term need, as veterans 
homelessness gets down close to zero, to redesign the homeless 
programs to be about preventing homelessness. That shift from 
intervention to prevention will be a very important work for 
this committee in the next Congress. And we are looking forward 
to working with you all at that time. Thank you very much.

    [The prepared statement of Mr. Steven Berg appears in the 
Appendix]

    The Chairman. Thank you very much, Mr. Berg.
    Mr. Downing, it is good to see you and you are recognized.

                  STATEMENT OF JOHN F. DOWNING

    Mr. Downing. Good morning, Mr. Miller. It is a privilege to 
be here with your committee.
    Congressman Michaud, it is great to be with you, a fellow 
New Englander, and the fellow that really, if you lived in New 
England, has really revived the Togus Medical Center and made 
it a facility that is really much more interactive with all the 
other facilities in the area.
    I am honored to be here today on behalf of Soldier On and 
the 3,800 veterans we have served last year. We have become the 
largest provider of supportive service grants of veterans of 
the United States of America. Soldier On operates eight SSVF 
grants throughout five Eastern States. This was accomplished 
with the assistance of Congressman Richie Neal and James 
McGovern from Massachusetts; Congressman Chris Smith from New 
Jersey; Congressman Chris Gibson from New York.
    In addition to that, we serve 76 counties in Mississippi; 
23 counties in Pennsylvania; and we now do the 4 western 
counties in Massachusetts. Next year, we are slated to increase 
the breadth and depth of our services and assist more than 
5,300 veterans and family members with special focus on the 
chronically homeless veterans whose lives are reduced by an 
average of 20 years when compared to their stably housed 
brothers and sisters.
    The Department of Veterans Affairs' goal to end veteran 
homelessness by 2015 was not a goal that could take place 
without examining and combatting the underlying effects that 
cause poverty and which really is the cause of homelessness. 
The lack of safe affordable housing, with services on site, has 
allowed veterans in poverty and those suffering from untreated 
and undertreated mental health and addiction disorders to be 
left forgotten and alone in their prolonged states of 
homelessness.
    Eliminating homelessness requires a society to look at 
these causes of poverty, which in a capitalistic society are 
rooted in income and cultural enrichment that we translate to 
mean education. As a result of that, the lack of those 
opportunities, the reality is that our goal has been to bring 
each homeless veteran back to the center of their life.
    With great help from the national director of homelessness, 
Lisa Pape, Soldier On became a leading grant per diem shelter 
bed provided for the VA. And we house every night 265 men and 
women in western Massachusetts homeless veterans, every night; 
13 of them are women. And for 13 years, the 13 women--every 
woman that has ever come into our care--and we need to hear 
this--70 percent of the homeless women that come into our care 
experienced sexual trauma before they enlisted in the military; 
100 percent of the women in my care have suffered military 
sexual trauma. It is a dynamic that we can't deny, and it is 
one that we must face more effectively in the Department of 
Defense on how we treat this issue. And we must begin to put 
women in charge of this issue and allow them to review and 
establish the standards by which we are going to be held 
accountable. And until we do that, we will continue this 
tragedy.
    I also want to make sure that we understand that safe, 
sustainable affordable housing is one of the keys to ending 
homelessness. But housing itself doesn't do it. We need to 
deliver services to the housing. How can we continue to expect 
men and women who are chronically mentally ill, addicted, don't 
have transportation, are underemployed, to keep three or four 
or five appointments a week? How can we expect them to find 
medical centers 30, 40, 50 miles from where they live? We must 
find them. We must go out and seek them.
    And we have been motivated by the SSVF work we do and by, 
really, the push from Vince Kane, when he was the director at 
the Center for Excellence, to get out there and do it. Not to 
have excuses. And so we have really worked hard at SSVF, and we 
are looking to continue to develop beautiful, affordable 
housing that veterans own and live in and deliver services to 
them.
    So, with the VAi2, we were awarded $6 million. And at the 
North Hampton VA in Massachusetts, we are now building 44 units 
of limited equity co-op for homeless veterans to own, live in, 
and have the services delivered to them there, and 16 units for 
women and children. And women and children, when we talk to 
them about moving to the community or moving to staying on the 
hospital grounds, they chose to stay on the hospital grounds 
because they felt safe and secure there.
    So we need to understand that this--that the Housing First 
model really works, but it only works when we deliver services 
where people live and we must be mobile. The VA has got to get 
mobile, and we have got to stop funding this incompetent--
skilled incompetent bureaucracy and begin to make it 
accountable by going out and identifying the veterans 
delivering the services where they live. Thank you.

    [The prepared statement of Mr. John Downing appears in the 
Appendix]

    The Chairman. Thank you very much, Mr. Downing.
    Mr. Landis, thank you for being with us today. You are 
recognized.

                    STATEMENT OF PHIL LANDIS

    Mr. Landis. Thank you, Mr. Chairman, members of the 
committee. My name is Phil Landis. So I am a president and a 
chief executive officers of Veterans Village of San Diego. And, 
sir, thank you for visiting us last year.
    As a matter of disclosure, you should be aware that I am a 
member of the VA Advisory Committee on Homeless Veterans and I 
am neither speaking for the VA, nor for the advisory committee 
today.
    Veterans Village of San Diego is a nationally recognized 
nonprofit that has served veterans since 1981. Using six 
pillars of prevention, intervention, treatment, aftercare, 
employment services, and housing, VVSD assists veterans who 
have substance abuse and mental health issues, including men 
and women recently returned from Iraq and Afghanistan.
    Working with addiction case managers and mental health 
professionals, residents have an opportunity to rebuild lives, 
repair relationships, and return to society as productive 
citizens. Housing First is an admirable and reasonable idea for 
many homeless veterans. In fact, since October of 2013, we have 
placed over 550 Veterans into permanent housing. However, for 
veterans with co-occurring disorders, housing without treatment 
is a major risk factor and, if left untreated or unmanaged, 
becomes progressive and life threatening.
    VA is putting a preponderance of their homeless Dollars 
into repaid rehousing and VASH. They have eliminated new 
funding for grant and per diem. Grant and per diem funding 
focuses on treatment and employment for transitional housing. 
And there is a need for both. To substantially reduce or 
eliminate grant and per diem beds would be short-sighted and, 
quite frankly, disastrous.
    Since the inception of our Supportive Services for Veteran 
Families, SSVF, program in 2013, we have assisted 263 veteran 
households who are homeless or at risk of becoming homeless 
into stable housing. This program is a great tool in fighting 
homelessness amongst the veteran population. The program 
prevents homelessness amongst veteran families and works with 
those who are homeless to rapidly enter permanent housing and 
utilizing the Housing First model.
    This model works very well for many of the post 9/11 
generation who only need a hand up. One of the benefits of the 
Housing First model is the singular focus on addressing the 
participants' housing crisis. However, we have seen that the 
SSVF participants and others who are not ready to address their 
primary cause of homelessness, whether it is substance abuse or 
mental health issues, are not ready to maintain long-term 
housing stability. Therefore, having the option to be in a 
formal treatment setting or transitional housing program 
benefits them in the long run and gives them the opportunity to 
work on their barriers prior to obtaining permanent housing.
    Our experience indicates that when a homeless veteran is 
denied the opportunity for a rehabilitation program or 
prematurely departs from a rehabilitation program in the VASH 
housing, unless intensive services continue, the risk of 
relapse, ending up in prison, or death occurs far too often. 
And here are just a few recent examples from our program: A 
veteran is placed into VASH housing that experienced severe, 
unintended consequences. Danielle, age 30, combat vet, within 2 
weeks in VASH apartment, relapsed on heroin. She is now in 
jail. Michael, age 57, relapsed a short time after moving into 
VASH housing, lost his home and is now in prison. Thomas, age 
41, was very active in a recovery program and community. 
Transitioned into VASH housing. Relapsed on methamphetamine 
within 3 months. Vernon, age 63, transitioned into VASH 
housing, relapsed on drug, now in prison. Phillip, age 33, 
combat vet going to school on the GI bill, school funding fell 
through due to low grades, relapsed on alcohol. He is currently 
awaiting transfer to a State prison. Walter, age 51, worked in 
active recovery program, found dead in VASH apartment in August 
of 2014. The medical examiner reported cause of death was 
alcohol related. Scott relapsed and lost apartment within 2 
months. James, age 56, relapsed 1 month later, now in jail.
    You kind of get the idea.
    Now, here is one that we really need to pay attention to 
because it seems to be under the radar: Joe Vaughn, age 27, 
combat vet, was in a long-term residential treatment program. 
Doing extremely well. When he received his VA 100 percent 
disability rating, the HUD income cap rule forced us to exit 
him from the program. We are seeing more and more of that. It 
might be something you would like to focus on.
    Homeless veterans who have lost their way due to substance 
use and/or mental health issues have also lost their job. And 
they have lost their community, their identity, their support 
system, their sense of camaraderie, their mission in life, and 
their financial stability. Programs that would provide housing 
but fail to address these underlying unmet needs will set 
veterans up for failure.
    For those who are situationally homeless due to a recent 
family crisis, job loss, or medical condition, the Housing 
First model is truly ideal.
    For those who are chronically homeless due to mental health 
issues, substance use, long-term medical conditions and/or 
criminal justice involvement, it is imperative to implement an 
assessment protocol that could triage the neediest, most 
vulnerable, high-risk, and disenfranchised veterans for whom 
residential treatment is essential.
    Our goals at VVSD is to break the cycle of homelessness 
among veterans and their families. In order for us to succeed 
in our efforts, we think it is crucial that we address the 
various reasons veterans become homeless in the first place. 
Not all veterans are ready to sustain themselves in housing. 
Not every veteran will have substance abuse or mental health 
challenges.
    But having both an SSVF and a veteran treatment center in 
the same agency allows us to make a substantial difference in 
the veteran community. One size does not fit all. And Housing 
First, at the exclusion of everything else, is just plain 
nonsense.
    In conclusion, at Veterans Village of San Diego, we believe 
intensive services leads to self-sustaining independence and a 
maximizing of human potential and a meaningful, fulfilling 
life. Our veterans are worthy of nothing less. Thank you, sir.

    [The prepared statement of Mr. Phil Landis appears in the 
Appendix]

    The Chairman. Thank you, Mr. Landis.
    Dr. O'Donnell, you are recognized.

              STATEMENT OF CASEY O'DONNELL, PSY.D.

    Dr. O'Donnell. Good morning, Chairman Miller, Ranking 
Member Michaud, and esteemed committee members. Thank you for 
the opportunity to offer this testimony.
    My name is Casey O'Donnell. I am currently the chief 
operating officer of Impact Services Corporation in 
Philadelphia. For the last 20 years, Impact has been providing 
both housing and employment-focused programs to homeless 
veterans who suffer from both mental illness and substance 
abuse.
    Impact's current continuum of housing includes 150 beds of 
both transitional and permanent housing. Impact's program was 
one of the first and was one of the few programs in the Nation 
exclusively serving dually diagnosed formerly homeless 
veterans.
    Since 1994, Impact has also been providing employment 
services through the Department of Labor's Homeless Veteran 
Reintegration Program. In addition to these programs, Impact 
has recently received surge priority one funding.
    Finally, Impact will break ground on 26 units of affordable 
permanent housing for low-income veterans and their families, 
focusing on females, on Monday, December 15th. You are all 
welcome to join us for the groundbreaking.
    We are working in close collaboration with the VA National 
Center on Homelessness Among Veterans to provide all of these 
services from a trauma-informed care model. I was invited to 
participate in the National Center's work group to implement 
trauma-informed care across the nation, both within the VA and 
among community-based providers.
    The national center has been an invaluable collaborative 
partner in the provision of care to homeless veterans, and the 
center's work related to training and implementation will be 
critical to success. Men and women who have proudly served our 
country through military service should not be allowed to 
suffer in addiction and mental illness on the streets of any 
city for one night longer. It is all of our jobs to find 
veterans safe places to live, recover from trauma and substance 
abuse, and improve the quality of their lives.
    In fact, it is believed by those of who us who are 
providers that trauma informed care is necessary to eradicate 
homelessness among veterans.
    Setting the deadline of December 31, 2015, to end 
homelessness among veterans has become a critically important 
milestone for our country. Impact has been extremely active in 
the 25 Cities Initiative to end veteran homelessness in 
Philadelphia. The deadline is producing hard work, 
determination, and teamwork.
    Over the last 11 months, with our many collaborative 
partners, we have placed 556 homeless veterans in permanent 
housing in Philadelphia. We have approximately 540 veterans 
left to house before the deadline of December 31st, 2015. The 
goal of ending veteran homelessness in Philadelphia is within 
our sights. We are ending veteran homelessness in Philadelphia 
by developing a safety net system that catches veterans before 
they become homeless, provides intervention, when necessary, to 
keep them housed, and gets them housed again if they have 
slipped back into homelessness. This safety net is important as 
we look at veterans who served in Iraq and Afghanistan who are 
potentially vulnerable and may be headed toward homelessness.
    Research provided by the National Center on Homelessness 
Among Veterans suggests that this rapid safety net approach is 
allowing approximately 80 percent of veterans to stay housed 
after 90 days of case management and temporary financial 
assistance through SSVF. Recent data provided by the City of 
Philadelphia's Office of Supportive Housing also shows that the 
number of actual homeless veterans on the streets and in many 
programs in Philadelphia have decreased by 15 percent in the 
last year. We expect that percentage to dramatically decrease 
in 2015 and come to functional zero by January of 2016.
    The safety net system has only been possible within the 
context of real partnerships that are being forged between the 
community and the VA as part of the 25 Cities Initiative in 
response to the deadline. These partnerships have brought HUD, 
the VA, local municipalities, housing authorities, and 
community organizations like Impact to a common table where 
systems have been changed by bringing two continuums, the city 
and the VA, into alignment on outreach and assessment and 
eventually on placement and retention to ensure that veterans 
are being moved into housing.
    Further, I would like to say that housing without jobs or 
increased benefits is only a short-term strategy. Supportive 
housing, integrated with programs to get vets into jobs and/or 
access to benefits or increased benefits, provides a long-term 
recipe for self-sufficiency. We would like to see the VA and 
the Department of Labor work closely to integrate community-
based job training and job development into current housing 
activities funded for veterans. A good place to start would be 
a pilot with community-based veteran organizations like Impact 
to better integrate SSFV, grant and per diem, HUD-VASH, and 
housing with HVRP programs.
    Finally, Impact currently operates four grant per diem 
programs that move homeless veterans through various stages of 
recovery to self-sufficiency according to their needs. Our 
program is currently full. It is full because there remains a 
critical need for grant and per diem to provide stable housing 
and services for veterans. Impact is extremely interested in 
working with Congress and the VA to test out several additional 
models of housing, utilizing the VA's grant and per diem 
program as the foundation of funding. Specifically, we would 
like to see a percentage of grant and per diem vets converted 
to provide supportive services and permanent housing, as 
opposed to only transitional housing, for formerly homeless 
veterans with mental health and substance abuse issues that 
require a higher degree of support than independent living can 
provide.
    In conclusion, on behalf of my colleagues at Impact, 
myself, and the veterans that we serve, I would like to thank 
the members of the committee for this opportunity to testify. 
Thank you for listening.

    [The prepared statement of Mr. Casey O'Donnell appears in 
the Appendix]

    The Chairman. Thank you very much.
    Dr. Sherin, you are recognized.

              STATEMENT OF JON SHERIN, M.D., PH.D.

    Dr. Sherin. Thank you, Chairman Miller, Ranking Member 
Michaud, and the committee for convening today's hearing. My 
name is Jon Sherin. I am a psychiatrist and neurobiologist by 
trade. Though not a veteran myself, I have spent my entire 
professional life serving veterans of the United States 
military.
    It was just 5 months ago that I testified in this same 
forum on the issue of suicide in the veteran community, and it 
honors me deeply to be here again testifying on homelessness, 
another true emergency confronting too many former 
servicemembers.
    As a reminder, I worked for over a decade in VA, last as 
chief of mental health at the Miami VA. Three years ago, I left 
that post to join Volunteers of America, a large nonprofit 
whose legacy in this arena dates back to serving Civil War 
veterans. Today, providing for veterans is Volunteers of 
America's top priority. Alongside VA, this past year alone, we 
housed and supported roughly 20,000 homeless veterans in 
communities across the Nation.
    Let me begin my testimony by making clear that ending 
veteran homelessness will require more than finding shelter for 
all homeless veterans. It will also require making sure that 
they have timely access to both a full range of services, 
including family support, mental healthcare, addiction 
treatment, legal aid, benefits assistance, and financial 
coaching, as well as a full range of opportunities, including 
education, training, and meaningful jobs.
    At present, there are a number of Federal programs that 
have been very effective at bringing homeless veteran numbers 
down, due in large part to congressional support. Further 
success will rely upon Congress continuing to provide 
unprecedented resource and oversight to these efforts within 
Federal agencies--within Federal agencies but also in relation 
to multisector partnerships. To this end, I applaud the 
committee for inviting input from the partners on this panel. 
In the remainder of my testimony, I will summarize 
recommendations for select Federal programs and suggest adding 
a peer-to-peer strategy that could bolster our efforts.
    Regarding select Federal programs, the following 
recommendations are made based on my own personal experience 
and input from numerous colleagues in both the VA and in the 
community. They are meant as guidelines to more effectively 
help homeless veterans. In markets where VA's grant and per 
diem transitional housing inventory is not fully utilized, it 
should be repurposed to better match local supply with local 
demand and funded accordingly. No inventory should be 
dismantled, shelved, or otherwise deactivated until we end 
veteran homelessness. The VA's safe haven transitional program 
is highly effective for chronic, recidivistic homeless veterans 
and has changed the life trajectory of many veterans for whom 
all other interventions have failed, some over the course of 
decades. These programs tend to be full and, as such, more safe 
haven inventory needs to be developed.
    HUD and VA's HUD-VASH permanent housing program is highly 
effective but only when adequately enriched by services 
alongside housing, in accordance with the Housing First model. 
In markets where VA is not equipped to provide adequate 
services, it is recommended that community partners be 
leveraged to do so.
    The Support Services for Veteran Families program, SSVF, 
created and administered by VA's National Center for 
Homelessness Amongst Veterans in Philadelphia, is a game 
changer that has successfully served a massive number of 
veterans in a short period of time through a streamlined 
partnership process. It makes sense to expand the scope and the 
reach of this program by including mental health as well as 
employment offerings and by loosening eligibility requirements.
    In terms of a peer-to-peer strategy, it would make sense to 
activate a robust, community-based workforce of trained and 
certified peers who can drive outreach resource navigation and 
advocacy for homeless veterans. Peers could be deployed to 
suitable VA campuses, housing facilities, and service centers 
and charged to connect homeless veterans to both VA and 
community resources. They could also be leveraged for the same 
purpose through the homeless crisis line, 211 exchanges, and 
Web-based portals such POS REP. Resource to fuel this workforce 
could be generated by approving veteran and peer-support 
training for VA work study and/or by enrichment of the support 
services grant.
    In conclusion, we must actively embrace a philosophy, 
create a culture and insist on policies that hold us 
accountable for addressing the vast array of challenges known 
to emerge for some veterans in the context of civilian life 
because it is these challenges that predictably precede the 
loss of a place to call home, something all of us need for 
life, liberty, and the pursuit of happiness. It is through your 
informed legislative stewardship that our country can promote 
conditions in which all sectors come together to form cohesive 
American communities that welcome veterans home, ensure they 
receive the services they need, and provide them ample 
opportunities to thrive. Thank you very much for hearing my 
testimony.

    [The prepared statement of Dr. Jon Sherin appears in the 
Appendix]

    The Chairman. Thank you all for your testimony today. We 
appreciate it, and any parts of your statement that were not 
read will be entered into the record as well.
    I think we all believe that ending veteran homelessness is 
an important goal. It is a laudable goal, but getting to zero 
is very difficult. I think, Dr. O'Donnell, you had remarked 
about functional zero. Can you tell me what ``functional zero'' 
really means?
    Mr. O'Donnell. So there is actually an equation. I am sure 
someone in our audience can identify what that equation is. It 
is based on an average number of veterans housed for 3 months 
as compared to the number that are left. That is not the--the 
whole equation.
    For us, it is ensuring--it is a more functional definition 
to ensure that there are enough slots of the appropriate kind 
of housing available for those that are left. Right. So as we 
decrease that number--so for Philadelphia, I believe it is 540 
veterans, ensuring that each of those folks have the 
appropriate space to come to. So I personally don't ever 
believe that we will be at zero. Right. It is about the safety 
net. But functional zero is ensuring that each person has the 
appropriate level of care, hopefully, that that would indicate 
that they would stay there for longer with the appropriate 
level of services.
    The Chairman. Those of you that provide group housing or 
housing in large numbers, how many or what percentage of your 
residents will never be able to get over that final hump, and 
will always be with us, with you?
    Mr. Landis, then Mr. Downing, both.
    Mr. Downing. Thank you. Go ahead.
    Mr. Landis. Our population may be a subset of those that we 
treat at our rehabilitation center. Two-thirds of our residents 
have diagnosable chronic mental illness by the time they find 
us; 70 percent of the population have already been 
incarcerated; of the younger generation, the post-9/11 men and 
women, the statistic for incarceration is about 85 percent. We 
know that, for the vast majority of these men and women, many 
will be able to deal with their demons. They will be able to 
move forward, but they are not going to do it in isolation. It 
is only going to happen after intensive long-term residential 
treatment. It is not going to happen if that does not occur 
simultaneously, either with housing or with some form of a 
long-term treatment center. There is a subset of this 
population that will require our assistance for the rest of 
their lives, perhaps 25 percent.
    But the rest, you know, if we do it right, what they should 
look forward to is a life that is balanced and a life where 
they have employment, because employment is a key factor in, I 
believe, happiness. They should be able to be self-sustaining. 
And they should be able to get on with the world as the way 
that we do in our own normal lives. But I would say, to answer 
your question, sir, a good 25 percent of this population is 
going to require our care for the rest of their lives.
    The Chairman. Mr. Downing.
    Mr. Downing. We look to shut down approximately 80 percent 
of our per diem beds over the next 5 years. We think about 80 
percent of the men and women we serve can really function and 
grow living in their own dwelling with services delivered to 
them. And there are various levels of services people need.
    On the average, in the community where we are working, what 
we are finding is veterans, essentially 50 and over, who have 
been homeless and chronically mentally ill for extended 
periods, can work about 15 or 20 hours a week when they are 
really back to the center of their life. So if you look at 
those type of entry-level, limited-income jobs, with some 
supportive services and some small benefits, either from Social 
Security or the VA, somebody can have a comfortable life in 
supported housing with services delivered. So we think that 
that is a reasonable number.
    We also believe that trauma-informed care, which has been 
mentioned here this morning, is an extremely important training 
that we all need to be continuously growing in because everyone 
that is in our care benefits from that. And what we have found, 
as we--we did some training with the National Alliance on 
Homelessness on trauma-informed care for the past year in our 
facilities--and all our staff has gone through it--and what we 
are finding is that where much people are much--feeling much 
safer discussing things that previously were kind of glossed 
over, pushed to the side. And I think that that is the type of 
thing that we need to get better at.
    So, to me, I don't think we are ever going to end 
homelessness. I think about 20 percent of the people are either 
in the category of we don't have the skill or ability to figure 
out how to manage their needs better or we have some folks who 
somehow seem comfortable in that lifestyle. So, you know, we 
accept that. We would like to change that, but I don't think we 
can.
    I don't know how you feel there, big guy.
    The Chairman. I apologize. I need to move to Mr. Michaud.
    Mr. Landis. I am sorry.
    The Chairman [continuing]. We have other questions, but 
thank you.
    Mr. Michaud.
    Mr. Michaud. Thank you very much, Mr. Chairman.
    This is for each of the panelist. Do you see any overlap 
between the three major programs funded by the VA, VASH, GPD, 
SSVF? And we will start with Ms. Crone.
    Ms. Crone. Mr. Berg here will probably laugh at me because 
I always say that there are four critical programs when we are 
talking about programs essential for ending veteran 
homelessness, and I would include HVRP in that mix. I know it 
is funded through Department of Labor.
    Like I mentioned in my statement, we don't look at the 
programs that exist and the people we are going to push into 
those programs. We look at each individual veteran and what 
their specific needs are. If you have--if you have a veteran 
who comes into a program and is in need of intensive services, 
multiple co-occurring disabilities, that person might be in 
transitional housing for a short period of time and move into 
HUD-VASH housing, using a HUD-VASH voucher. In that case, they 
are using both of those resources, but there are stepping 
stones to get that person into permanent housing.
    On the other side, you may have someone who comes in who 
needs a short-term intervention and assistance with employment 
and services because they are unemployed, but they want to go 
back to work. They may be enrolled in SSVF to help them pay for 
their security deposit, and they may get employment services 
through HVRP. In that case, they are using two programs, but 
they are using the best practices of what those programs are 
meant to provide in order to get themselves----
    Mr. Berg. Yes. Thank you.
    I would say one of the real advances that people who work 
on the issue of homelessness all over the country have made is 
understanding this idea that different homeless people need 
different levels of care and to set up a system with an array 
of interventions that are designed for that. And I think the 
three programs you mentioned, not to leave out HVRP, but those 
are the three big housing programs, and there are aligning 
themselves in many cities with that in mind. And SSFV deals 
with people for whom a short-term intervention is most 
appropriate. HUD-VASH is for the people with long-term 
permanent disabilities. GPD works well for people in sort of a 
middle group, really concentrating on recovery housing. There 
is always some overlap. You are never sure because people, once 
they get in a program like this, a lot of times, they improve 
tremendously. But I think that array of programs is the right 
one, and it is working well.
    Mr. Downing. I would agree with that, Mr. Michaud. Also, 
just from my viewpoint, I think the HUD-VASH case manager 
should all be outsourced to community-based groups. I think 
they are much more geared to housing search. They are much 
better at working at it. There are professional agencies in the 
community that they should partner with to do that. I think 
trying to train people and bring them up to speed on that is 
just kind of insanity when there are so many groups--especially 
if you look at what has happened with CAP agencies in the 
Community Action Programs, have really done housing search 
extremely well in our communities. And we should be funding 
them with the VASH money to do it for our veterans, I believe.
    The GPD program, I believe, has done a great job. And I 
think downsizing everybody can see coming. For SSVF, I really 
think this is what we have to get in our head: SSVF leverages 
tremendous amounts of community assets to work along with the 
VA Dollars. So what we have discovered is the average veteran 
who we serve in SSVF, we are spending somewhere between $2,400 
to $4,400. Somebody in GPD for a year costs us $42,000. But 
when we do the 24 to 42 in the community, we are also bringing 
in community-based addiction services, we are bringing in 
finance management agencies, we are bringing in mental health 
agencies to work to help us stabilize, all at a different cost 
center and all available to other citizens. So that leveraging 
has really made, I think, that program much more effective. And 
I think it is why we are seeing the tremendous results with it.
    Mr. Landis. If you develop a continuum of care within an 
agency, each one of these three programs complement the other 
and seem to work very well together.
    Dr. Sherin. There is definitely an overlap, but not 
redundancy, and I think that is the key element here.
    Mr. O'Donnell. I think that these are distinct programs. I 
would beg to differ with the concept of deactivating any grant 
per diem inventory, as I said in my testimony. I believe that 
that is critical inventory around the Nation that can be used 
to do things in addition to grant per diem housing, including 
bridge housing, rescue housing. In addition, it could be used 
for permanent housing or permanent supportive housing. It could 
even be used for assisted living down the road, depending on 
the needs of the local community. I would also reiterate one of 
my co-panelists comments about HUD-VASH case management. 
Communities are very well-equipped to do this actually in a 
more efficient and cheaper, less expensive rather, manner.
    The Chairman. Mr. Bilirakis, you are recognized for 5 
minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it. I 
want to thank Ranking Member Michaud for his advocacy on behalf 
of our veterans and being a great friend to our true American 
heroes over the year. It is been an honor to serve with you, 
sir.
    The first question is for the entire panel. Last week, the 
Virginia Inspector General issued a report that found serious 
problems with VA's national call center for homeless veterans. 
The report found that the VA missed 40,500 opportunities to 
engage homeless veteran callers with needed services due to 
lapses in management and oversight, and I know the chairman 
mentioned this in his opening statement.
    Furthermore, the IG's audit found that the majority of 
messages were left between 11 a.m. and 3 p.m. during the day. 
The report also stated that counselors spent significant 
amounts of time unavailable to answer calls during peak calls. 
This is during peak time periods. This is unacceptable. For the 
panel, were you surprised by the IG's findings regarding the 
call center? What are your personal experiences? I would like 
to hear from you. How would you suggest VA improve the call 
center's performance, and who do you think should be 
responsible for operating and overseeing the call center, and I 
guess we will start with Ms. Crone.
    Ms. Crone. NCHV has said publicly when this came out that 
we take this report very seriously, and it is completely 
unacceptable that any veteran in crisis, any veteran in need 
reaching out to something that should be operating 24/7 should 
go to voice mail. We are going to be following the progress on 
addressing these steps very closely because it is meaningful to 
us on a national level and to our members. We believe that the 
steps that are laid out to address the various issues with the 
call centers seem reasonable. We are going to be watching those 
very closely to make sure that they happen and that the 
timelines are stuck to. But what is important to remember with 
the call center is that it is a small piece, or it is a piece 
of the overall outreach effort that we have to homeless 
veterans within communities. The providers on this panel and 
the organizations that we work with, those are the people who 
are going out on the streets, that are under bridges, that are 
in shelters, that are looking for veterans in need of services.
    So it is important to keep this in that bigger context, 
that these veterans are likely receiving services, and it is 
thanks to the community providers that are doing that through 
funding resources like SSVF. But, again, we will be watching it 
really closely.
    Mr. Berg. I think the steps the VA appears to be taking to 
address the findings in here seem like the right thing to do. I 
think the IG is doing the IG's job, which is good. That is why 
they are there. We need to have things like this work. We need 
to also not get distracted from the major goal of what is going 
on. When something like this comes up, this is important, get 
it fixed; or if it is just not going to work, then get rid of 
it, and keep moving forward with stuff that works. That is our 
view.
    Mr. Bilirakis. Mr. Downing.
    Mr. Downing. Well, this was run by VHA, and it kind of 
boggles your mind that we have the 800 number for homeless and 
people in need going to VHA and not running it through the 
homeless program that has a lot of community partners and is 
used to contracting with community partners to provide service. 
Because I would suggest to you, again, that agencies like 
myself and others that operate 800 numbers are very good at 
responding to people 24 hours a day, are very good at getting 
the information to where it has to go so people get the 
critical intervention that we need to prevent a tragedy.
    So I think that what we really have to do is challenge the 
VA again to look within itself and look at where is the 
competency in this group, and let that group of competent 
individuals operate it. And I think it is shameful that we just 
put it out there and say because we have done it and we have 
all this information flying around, it is going to work. I 
operate an 800 number for SSVF. I operate it with homeless 
veterans answering the phone 24 hours a day, and when you call 
and you are in one of our areas, we have a veteran, a case 
manager, in your home within 48 hours, any of the five states 
you are in that we work in. But we have learned that we have to 
get the information, respond to it, and have backups, and you 
need to have community partners that respond where you are 
weak; and that is what we are not doing with the VA. And I 
know, and I just can't believe with the history of the homeless 
program and its ability to contract, that that is not the 
perfect thing that should have been moved through them to do 
the outreach to veterans.
    Mr. Bilirakis. Thank you. Mr. Chairman, I yield back.
    The Chairman. Thank you very much, and now to the incoming 
ranking member, Ms. Brown, you are recognized.
    Ms. Brown. Thank you. Thank you, Mr. Chairman. First of 
all, I think this is a great day to talk about the fact that we 
have cut out one-third of the homelessness and we are moving in 
the right direction, and I have been on this committee for 22 
years, and we have been working and discussing it for 22 years, 
and I do think there is a lot more we need to do, and certainly 
working with those stakeholders is extremely important. Our 
partners, like you said, the mayors, the different groups and 
organizations, we are moving forward, and I am very pleased 
with that.
    I guess what is still very disturbing to me is the number 
of homeless veterans' families, when I see the children of just 
the veterans and the children and when I run into a mother and 
she can't have the children because there is not adequate 
housing. Can you address that for me, please? Either one of 
you.
    Mr. O'Donnell. If I may, this is exactly the reason we are 
opening these 26 units, and they will be available in September 
2015. It took us 5 years to get where we needed to be to have 
the support to do this, but you are right. One of the problems 
is, especially in Philadelphia, there is very few places--I 
know of one--for a woman to find shelter with her children. 
There are single fathers also with children, and we welcome 
them into the program, so many of those women have a fractured 
family for no other reason than their being homeless. So 
programs like ours will offer the opportunity to partner with, 
in Philadelphia it is DHS, Department of Human Services, to 
reunite moms and their kids. And there is a growing need. 
Twenty-six units isn't nearly enough.
    Dr. Sherin. Just a comment on that. At Volunteers of 
America, we have a great deal of a commitment to homeless 
families. We have facilities around the country that are 
focusing on this. We just are in the process of opening up a 
78-unit facility in San Pedro called the Blue Butterfly Village 
specifically for homeless female veterans and their families.
    We also just opened one in Chicago called Hope Manor II. 
This is a critical issue, and when you think about the 
stressors on family of serving, it is no surprise that we have 
this challenge. And I think when we look to funding through the 
Federal Government, we need to create the flexibility to create 
these programs. I can tell you that the Blue Butterfly Village 
in San Pedro took almost 15 years to get developed, and one of 
the reasons for that is that we couldn't get easements due to 
interference from the DoD.
    Ms. Brown. The key is there is a multiplicity of things. We 
cannot sit here and think that just getting a person a house is 
the answer. The homeless person had a house, but they need the 
counseling. They need the support services. They need the 
employment. So it is really us working with the stakeholders. 
It is not just getting a person temporary housing. They have 
really fallen through the safety net.
    Mr. Downing. You are absolutely right, Ms. Brown, and I 
think that the issue again, and I want to go back to what Doc 
said. We need to be able to build affordable housing more 
rapidly, and we need to create priorities. And one of the 
issues is we are forced, because veterans are not a protected 
class under the Fair Housing Act, we have to compete with every 
other community of need for affordable housing money. There 
have been some special, the areas done on tax credits where 
there have been set-asides for stuff built in a medical zone, 
and we can get veterans housing lined up. I am doing that in 
Mississippi. And we are looking at models and we are working on 
models where we can utilize tax credits and integrate them with 
the affordable housing money to make it happen more rapidly.
    I have four projects under construction right now, and the 
fastest one is 3\1/2\ years from the day we started. So it has 
been a long run. In the 5 years that I have been at it, I have 
got 39 units completed with people living in them for 3 years. 
It operates beautifully, but it is going to take a long time, 
and so there is a whole structure on the housing issue that we 
need to work on.
    Ms. Brown. Mr. Downing, I think you said something very 
important. Many of these programs are already in the community. 
It is just how do we partner with them, with these 
stakeholders. They are very good at finding housing and that 
supportive services that is needed.
    Mr. Downing. Yes, ma'am. One of the things that has made me 
a great fan of Jeff Miller is that he absolutely attacks 
bureaucracy for the sake of the consumer. We need to be doing 
that on these issues because the tragedy is this, and this is 
the hard part. What motivates me to do the work is simply this: 
8 or 9 percent of the American people are veterans. Every one 
of them that put on that uniform for a day said to all of us, I 
will die for you. We need to clearly hear that that sets that 
community apart for services and opportunity ahead of every 
other group in America; and we need to make that sacred, and 
this committee has done more, I think for that, than any other 
group in America in bringing it to light and in getting the 
government agencies focused on that, and I really thank you all 
for that. I think it allows us to do our work with more 
dignity, and also with a sense of hope that we might not have 
had 10 years ago.
    Ms. Brown. Thank you very much. I yield back the balance of 
my time.
    The Chairman. Thank you. Dr. Roe, you are recognized.
    Dr. Roe. Thank you, Chairman. I also associate my remarks 
with what you said about Mr. Michaud. It has been a pleasure.
    I think probably part of the VA and the bureaucracy, Mr. 
Downing, you share, Dr. O'Donnell, and I share with all of you. 
Setting up an 800 number doesn't fix anything if nobody answers 
the phone. So I think the people that solve the problem, I am 
sitting here looking at right here. Let me share with you a 
little bit of my frustration. At the Blue Butterfly Village, it 
may actually be about as long as that VA hospital in Florida 
that Ms. Brown has talked about since I have been here to get 
done. We had a flood in our area three years ago, tremendous 
flood. It took out about 100 homes. We weren't big enough for 
FEMA to help us. We took the local mayors, private-public 
partnerships, and we built 35 homes for these people in a year, 
had them in the homes, ready to go.
    We are beginning to do that for veterans now, and we are 
using the Appalachian Service Project in East Tennessee. We are 
using private funds. We are using public funds. We can build a 
home for cheaper than the VA can rehab a house where we are. 
The biggest problem we are having, and I was going to ask Dr. 
O'Donnell this, the biggest problem we have with the HUD-VASH 
program and others is there is not enough housing stock. That 
is the biggest problem we have got. If we had more housing 
stock, we have got the vouchers; we just don't have a place to 
put the veterans. We just broke ground on several--it will make 
a little dent like you. In 8 or 9 months we will have seven 
apartments where we are for veterans. But that's the biggest 
challenge we have.
    And the other challenge Mr. Downing brought up is this case 
management. It takes the VA forever to get a case manager. 
Those assets are already in the private community if they would 
just unleash them. And everything you have heard, I have heard 
in my own community. The VA needs to be a little less 
paternalistic and work with people like you all that are able 
to go out and do these services rapidly. Because somebody 
living under a bridge tonight is freezing. It is cold, and we 
need to get them off the street now and get them in this not 
just 6 months from now, but it is an emergency. I will start 
with in Philadelphia, how are those 500-plus folks going to 
get, what are you going to do with that? That would be the 
biggest challenge I see is where do you find 500 safe places 
that are approved for them to live in?
    Mr. O'Donnell. So collaboration with landlords, not my 
doing. It is a collaborative effort and there are landlords 
that, you know, want to do well and do good. So they are 
private owners that get approved to provide HUD-VASH housing, 
so having direct contact with landlords, but again, the 25 
cities initiative--in Philadelphia it is called a boot camp. I 
don't know if it is called that elsewhere, but people get 
together in a room regularly. There is Mr. Steve Culbertson who 
else in the audience there helps lead this effort. They get 
together and they identify every name on the list. So in truth, 
there are more than 540 homeless veterans left in Philadelphia. 
Those are the names on that list that get reviewed regularly 
with benchmarks that we need to hit constantly. And that group 
holds themselves accountable and it is about partnership, and 
clarity, and communication, and also about transparency, which 
is at the heart of some of this.
    Dr. Roe. Let me ask this, a little more global question. 
Are all the VA programs that we have, are they interconnected 
enough or do we need to have a review and say okay, let's make 
it simple and easier for organizations like you that are on the 
outside looking in? Is there a way to do that?
    Dr. Sherin. What I would say is that in the past several 
years that the National Center For Homelessness Amongst 
Veterans has created a new paradigm for partnership with 
community, which is one of the reasons why the SSVF program is 
so effective. When we talk about issues like the call center, 
communities are set up to do this type of work. We are set up 
to do intensive case management for HUD-VASH. I would strongly 
recommend that the VA consider leveraging the National Center 
For Homelessness Amongst Veterans to establish a larger 
continuum of services with communities around the Nation 
because it can do it in a much more streamlined fashion than 
through the VISNs and the medical centers.
    Dr. Roe. There are local housing authorities that already 
has that case management set up. All you have to do is let them 
do it. I mean, they are already doing it right now. It would be 
really simple. But now you go and find a case manager. They got 
to be trained. They got to do all this--I don't know whether 
you all have run into that or not. I certainly have.
    Mr. Downing. We would find the same thing. Look it, the 
bottom line is, the VA is going to continue to do these things 
unless it is demanded otherwise, you know. And we deal with all 
types of issues. But the reality for me is this: If I look at 
veterans and where they live, and as I go into rural areas, I 
am shocked at Vietnam veterans that we are identifying, 30 
percent of the Vietnam veterans we identify in the five States 
we are in in rural America are at 30 percent of median income 
or less; 60 percent are at 50 percent of median income or less. 
So, you know, we have to see that individuals left unserved, 
unhoused, and not being cared for continuously have diminished 
power to help themselves.
    Dr. Roe. Yes.
    Mr. Downing. So we need to rethink that, and I have become 
more and more convinced, at some point, we have to give every 
veteran his card with his benefits loaded up in it and let him 
choose to go to the VA or choose to go to a community provider 
or a community hospital, because until we do that, I don't 
think we are going to utilize the resources that are available 
that we all continuously refer to.
    Do you know what I am saying? I just think we need to 
somehow manage that out, and I don't know how else to manage it 
out without leveraging the Dollars. And it is frustrating 
because we watch the same thing you watch, sir, that there is 
services here, and we are sitting with people being trained 
over here while people dwindle out of their housing voucher 
based on the fact that they can't get services.
    I mean, it is difficult, so I would like to see that 
change.
    Dr. Roe. I yield back.
    The Chairman. Mr. Takano, you are recognized.
    Mr. Takano. Thank you, Mr. Chairman. This is for any of the 
panelists. I have heard from providers in my district that most 
funding available for creating new housing options for homeless 
veterans and homeless people in general is for capital costs, 
in other words, for startup and construction costs, rather than 
operations and maintenance. And while funding for capital costs 
is obviously very important, the providers in my district say 
they have trouble funding operations and maintenance.
    Do you believe this is a problem, and do you think that 
funding for this type of housing should be more flexible? For 
any of you, Mr. Landis, Mr. Downing.
    Mr. Landis. In my experience, planning the capital cost to 
build a project, although it is difficult and complex, pales in 
comparison to your point in that the funding for services is 
just not there, or there isn't much of it. And the two go hand 
in hand. You can't just have a place to live, and without being 
able to provide extensive services to the veterans that are in 
place, as I mentioned earlier, you are going to have veterans 
that fail in their housing and they lose their stable housing.
    So the operational funding is critical to maintaining the 
stability of the vast majority of these men and women whom we 
are placing into housing.
    Mr. Takano. Mr. Downing.
    Mr. Downing. We found that operations were an issue until 
we got involved with SSVF and learned to build partnerships 
better with other community-based agencies, and it also gave us 
personnel in the area where we were doing housing. So you have 
staff with that. So what we have developed in our SSVF grants 
is we employ in all of our SSVF grants approximately five to 
seven veterans who work as peers, who do nothing but provide 
transportation for you to your appointments, or bring your 
appointments to you, depending on what the need is.
    And what we have found, again, is that is really where it 
works. What causes the cost to go up in services is when you 
have to rely on a source, and I would assume all of us have 
learned that the more we can partner this out, we can do it. 
The second thing is, in building, I build nothing but limited 
equity cooperatives for the veterans to own and manage. The 
reason I do it is twofold. Number one, they pay taxes to the 
community we build them in, so I don't have that pushback that 
it is more non-taxable property. The second thing is, our cost 
of operations of maintenance is at 40 percent of the national 
average because people who own where they live, when we say to 
our vets, you can go out and help us shovel the sidewalk, or we 
can pay guys 15 bucks an hour to do it, and they say, oh, no, 
if you are paying them 15, that is less income for us and our 
cooperative. Our costs go up. They get that. So we are finding 
that model works. There is ways to do these things. We just 
have to do the partnerships. I think if we can get the housing 
up, we will maintain it. Okay, I believe that.
    Mr. Berg.
    Mr. Berg. I think an analogy is to look at the private 
sector. In the private sector landlords don't get grants for 
operating costs. They collect rent. And from the rent, they pay 
the operating costs. Congress has put a lot of money on the 
table for rent subsidies for homeless veterans through the HUD-
VASH program and through the SSVF program. I think what is 
starting to happen is, people who do veterans' housing, do 
site-based housing, are starting to change the way they do 
business a little bit in order to figure out how to use the 
rent subsidies as ways to finance that. I think it is realistic 
and it seems to be working.
    Mr. Takano. Well, Mr. Berg, can you explain to me more in 
detail your suggestion to put in place a system that will find 
vulnerable veterans before they ever become homeless and 
prevent their homelessness entirely. Do you think the VA is 
heading in that direction already?
    Mr. Berg. I think they are starting to head in that 
direction. And this is the long term vision. We need to end 
veterans' homelessness. And we are on track to do that. But 
then once we do that, we need to make sure it never comes back, 
and really transform into a prevention system. I think VA is 
already starting to do things like veterans who come into the 
health services facilities get asked certain questions to try 
to assess what their housing stability is, and then that 
information gets, at least the way it is supposed to work, and 
it does work this way in the places where it works well, that 
information gets transferred to people who can do something 
about it.
    Mr. Takano. I mean, there seems to be certain higher-risk 
folks who are servicemembers, people who have been trained to 
disarm IEDs and who we know have been in more intense battles. 
It seems to me DoD should be able to provide data on these 
individuals and we can track these individuals as they move 
into--it ought to be that we are identifying more high-risk 
individuals.
    Mr. Berg. Exactly. This is a future challenge. DoD knows a 
lot about people who are in the military, and it would be very 
helpful if they would share key information like that with VA 
as part of a sort of a----
    Mr. Takano. They don't currently share that information?
    Mr. Berg. There is some efforts underway to do that. I 
think there needs to be more.
    Mr. Takano. Thank you, sir. I yield back, Mr. Chairman.
    The Chairman. Thank you. Dr. Benishek.
    Dr. Benishek. Thank you, Mr. Chairman. I thank you all for 
being here today. I have got some great information from it. 
Mr. Downing, in particular, I really appreciate your passion--
--
    Mr. Downing. Thank you.
    Mr. Benishek [continuing]. And your frustration with the 
bureaucracy of the VA as I share that very much as well. And I 
guess one of the first things I think of when I hear about the 
difficulty in coordinating the VA with the community-based 
services that are available and that, it seems to me that each 
community has a different set of community-based services, and 
I am not sure if there is enough flexibility within the VA to 
be able to deal with that. I mean, how does the coordination 
occur? Do you know at what level the VA makes these decisions 
to get into partnership with the VA?
    Mr. Downing. Speaking for SSVF and the grant per diem 
program that I work with, they absolutely encourage community 
partnership. They work with us in working it out. We regularly 
would call Lisa Pape and her staff and talk about, hey, how do 
we pass money through here? Can we make that work? Does that 
pass the sniff test?
    Dr. Benishek. Is that happening just in your--my concern 
is----
    Mr. Downing. I am doing that in all the States I am in. I 
have no trouble all. I find the veterans' services in 
communities very willing to interface and work. With SSVF, we 
can sometimes pay first month, last month, and do some things 
to assist so we can work the veteran's service officer and 
extend out benefits, and stabilize better, so all of that 
works----
    Dr. Benishek. What I am saying is, there is obviously a 
failure somewhere because of the fact that this--for example, 
this phone-in service was not working.
    Mr. Downing. But that was VHA, not the VA per diem. So it 
is done out of that big bureaucracy of healthcare and not under 
the little unit that just dealt with homelessness, the grant 
and per diem office and the homeless program.
    Dr. Benishek. So do you feel as if that--why is the VHA 
taking care of this when it should be the homeless people?
    Mr. Downing. You know what, Doc, or Mr. Congressman, I 
really can't answer that. I am befuddled by how they think. I 
have come to describe the VA as a bureaucracy that excels at 
skilled incompetency.
    Dr. Benishek. I agree with you.
    Mr. Downing. I don't know how they do it. I know this, that 
when I work with my community partners, when I deal with the 
grant and per diem folks or the people at the Center For 
Excellence in Philadelphia, I get answers. I get responses. I 
get frustrated sometimes, but I generally get, you know, I 
generally get supported in trying to move forward.
    Dr. Benishek. Well, hopefully, the VA will----
    Mr. Downing. The VA healthcare, they are the enemy to me. 
Even at the hospital that I house 225 homeless vets every 
night. Okay. They don't cooperate with me.
    Dr. Benishek. All right, thank you for your answer, Mr. 
Downing.
    I would just like to ask Mr. Berg a question sort of 
following up on Mr. Takano's question, and that is, how we can 
best, you know, and we didn't really breach about how to 
prevent this in the beginning when the person transitions from 
the DoD. I think there should be a better way of not waiting 
for somebody to reach out to the VA, but to make sure everybody 
on their discharge gets some follow-up. And can you maybe 
comment on that a little bit more, Mr. Berg?
    Mr. Berg. Sure. And just to go back to the previous 
question, I would just say, I work with several different 
Federal agencies and what I found with all of them, HUD, HHS, 
and VA, whatever you think about the agency in general, and 
people have different ideas, one of the good things about 
working on homelessness is in all those agencies the part of 
the agency that deals with homelessness seems to attract people 
who are very capable, very smart and very committed to getting 
things done. So I think that supports what Mr. Downing is 
saying.
    On the prevention issue, what we see as an important long-
term piece of the homelessness prevention system is exactly, as 
I said before, the DoD knows a lot about people who are in the 
military, and we know more and more about what the risk factors 
for homelessness are, both for people in general, and 
particularly for people who have been on active duty, depending 
on the kind of duty they had, the kind of injuries they have, 
what sort of medical conditions they have, what experiences 
they had while they were in the military, what characteristics 
they had before they ever joined the military. These are risk 
factors for homelessness in all of that. DoD knows a lot about 
that. VA doesn't have really any ready access to that kind of 
information, but that wouldn't have to be the case.
    I could foresee a system where the homeless services part 
of the local VA Medical Center had a list of veterans who were, 
who had been identified as having these risk factors, that they 
could check on once in a while, not in any sort of intrusive 
way, but just as part of the normal course of business. We are 
a long way from having such a system, but I don't see--I think 
we have got the know-how to make a system like that work.
    Dr. Benishek. Thank you. My time is expired.
    The Chairman. Ms. Brownley, you are recognized.
    Ms. Brownley. Thank you, Mr. Chairman. Mr. Downing, I 
wanted to follow-up with you on your comments on military 
sexual trauma. And I am just interested to know if there are, 
you know, sort of model programs for that and if it is 
consistent across the country. Do you have any idea of what the 
success rate is? Do any of our men and women who experience 
military sexual trauma, do they fall into the category? I think 
there were two of you who talked about 20 to 25 percent of 
veterans will need services for a lifetime and sort of not have 
the recovery that we all would hope for. Can you comment on 
that?
    Mr. Downing. Well, first of all, I can comment on the women 
that we serve. It is hard for me to project it out nationally. 
Think about this: In 13 years, every night we are at 100 
percent capacity for 12 beds for our women, every night. I have 
never had a woman with custody of children present. It kind of 
runs counter to all the thoughts I would expect to have take 
place.
    So the first thing we found out is that women will live in 
horrific situations where they are absolutely horribly violated 
and everything rather than show up in a shelter with children 
because they don't want the children identified and then going 
into special care units in most States.
    The second thing that we found is that we had to change how 
we operated our women's program. There is no male authority in 
our women's program. It is run all by women. No man has any 
power, has anything there. We pay all the bills. That is what 
we do. Soldier On pays the bills. We found out that was another 
issue was male authority, trust of men, that type of thing.
    Finally, we found out the approaches we were taking really 
changed when we went to trauma-informed care into wellness. We 
got a grant for $150,000 from Newman's Own Foundation and we 
started a wellness program in our women's program. And we 
started to deal with the spirit, the mind and the body, and we 
started to see some real change. Now, I can only express the 
change in how people appear and then how women started to--our 
women never participated in any program that involved our men.
    We now have former homeless women who are employees working 
on the call center, working as outreach workers, working as 
peers. We have women going to school. But the issue is, they 
want women-specific services, and it is very difficult because 
the VA does not accommodate that at all. At the rural VA center 
that I am at, there is no OB-GYN services at all. If a woman 
has a mental health break and needs to go to a unit, she goes 
on a unit with male patients; completely unacceptable to her.
    So we have to, in our facility, we dual register all our 
women in Mass Health so they can choose to go community-base 
where they can see doctors that they are comfortable with and 
they can go to units for treatment where they feel safe. 
Doesn't make sense to me that we have--so that is that.
    Finally, in the piece about recovery, I think the women 
generally recover because there is much more support in their 
community for one another than there is with the men. They tend 
to care for one another very much and they tend to look out for 
one another, so that even as they have moved into the community 
and established their lives, they come back and visit. They 
come back and help the women decorate their new apartment, just 
a number of those things. So I think there is more hope for us 
there. But the shocking part to me is that we continuously read 
about this in DoD. And you know, it is not run by women--do you 
know what I am saying?
    Ms. Brownley. Yes.
    Mr. Downing. And it is like somehow we are going to get 
there. Well, I want to tell you something. When I first ran the 
women's program, I ran it like we ran the men's program. And in 
fact, they shared some space in the building where the men 
were. And I was very frustrated with it and women were coming 
and going, and it really wasn't working. And I went home one 
night and I am sitting with my wife and I have a daughter who 
is a special-needs teacher who happened to stop at the house, 
and I am talking about the women's program.
    My daughter looks at me and she says, what the hell are you 
doing running a women's program. You stunk as a father. If it 
wasn't for mom, we all would have left you. And I am really? 
And I had to really--she wasn't joking. She was dead serious. 
Okay, and that is when I realized, my God, yeah, what do I 
know? And how do I--I didn't understand. Do you know what I am 
saying?
    Mr. Brownley. Yes.
    Mr. Downing. So that is what we need to do, and we need to 
really say that across the board. I am sure Dr. Sherin has some 
other insights on women like that because I would assume in 
your practice, there has been a lot that you face.
    Ms. Brownley. Yes, sir, I think my time is up, but I would 
like to hear from other members maybe, you know, off time here 
about----
    The Chairman. If we could do it off line because they are 
about to call votes, and I would like to go ahead and continue 
the questions. But thank you very much, and thank you for your 
spontaneity, Mr. Downing.
    Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman. Dr. Sherin, I have 
got a question for you. You were talking about how we calculate 
homelessness, and I think you had, if I can quote you, you said 
certain homeless veterans populations, and then you went on to 
say, elude current methods of calculation. What populations are 
you referring to, and what do you think the true number of 
homelessness is?
    Dr. Sherin. I think you actually got the wrong doctor. I 
will hand it over to him, but let me just say real quick, I 
think we have to recognize that our estimates of homelessness 
are rough. You know, when we do the point time count, we get a 
sense on a given night how many veterans we are finding 
basically in the streets. First off, there is a whole year that 
we are looking to kind of estimate. Secondly, there are 
veterans that elude these techniques and these radars, for 
example, post-9/11 veterans I would say in large part, and 
female veterans.
    Mr. Coffman. Okay, Mr. Landis.
    Mr. Landis. No. I think that was yours.
    Mr. O'Donnell. So you asked for the actual number, and I 
don't know. But you asked about the population, and as you 
might imagine, as the number of homeless veterans that are 
known, I will speak to Philadelphia, to be in Philadelphia, 
those that are more elusive, might actually be choosing to live 
on the street for a whole host of reasons.
    But as we find appropriate housing, some of those folks are 
the most difficult people to find appropriate housing and care 
for, significant mental illness, chronic and prolonged 
substance abuse and dependency. They are at a stage in their 
recovery where they--it is called precontemplative. You are not 
even considering the idea of abstinence from substance use. So 
those are the folks that I think no one really has figured out 
what long-term appropriate housing and care looks like, and I 
don't know the number.
    Mr. Coffman. If we talk about the majority of the causes 
for veterans homelessness, I mean, when I left for my first 
overseas assignment with the United States Army in 1972, came 
back from my last overseas assignment with the United States 
Marine Corps in 2006, and so, but I never went to Vietnam. And 
that population, a conscript military, very intense war, a lot 
of drug and alcohol issues, doesn't the majority of 
homelessness right now come from that generation of veterans?
    Mr. O'Donnell. The generation that we are serving 
predominantly is from the Vietnam era.
    Mr. Coffman. Vietnam era.
    Mr. O'Donnell. But within the last year, we went from 5 
percent OEF/OIF veterans to 10 percent OEF/OIF veterans, so 
that is steadily and significantly increasing. And those guys 
haven't hit bottom yet. They are couch surfing. They are being 
incarcerated, often related to substance use. But your 
comments, and actually the comments about military sexual 
trauma, if you can expand the idea of trauma just from combat 
to complex trauma that occurs on the street, there is something 
implicit about being homeless that there is a threat of 
violence, interpersonal violence on a regular basis. We know 
there is a dose-duration relationship between trauma and all of 
the problems, including homelessness that come along with that.
    Mr. Coffman. Well, doesn't it--any effective program for 
homeless veterans, doesn't it have to include a mental health 
component, particularly in substance abuse?
    Mr. O'Donnell. You would imagine so. If I had another 
choice today, I would say allow the VA to outstation mental 
heal providers. We are not allowed to provide psychotherapy. So 
there are evidence-based treatments for posttraumatic stress 
disorder and a hole host of other disorders related to trauma. 
We can't provide that service directly. We drive guys every day 
to the VA if they can get an appointment, but if mental 
healthcare providers could be outstationed to our facility, I 
will even pick up the occupancy cost. Right? We can try to find 
money, but if you can provide that level of care, yes, it is 
necessary, and then a longer discussion is about trauma-
informed care, which is a culture change.
    Mr. Coffman. It is about--I don't want to use the term 
outsourcing--well, I guess I would--about reimbursing private 
providers for providing the care or nonprofit providers for 
providing the care.
    Mr. O'Donnell. That would be an option, although I got to 
tell you, the VA has a whole branch that focuses on 
implementation and evaluation. So if mental healthcare 
providers are given the training to provide evidence-based 
therapy for specific disorders with some flexibility about 
context because that is relevant in implementation, I would 
suggest that before giving me money to go hire a therapist. The 
VA is able to monitor what therapies are being delivered and in 
what way.
    Mr. Coffman. Thank you, Mr. Chairman. I yield back.
    The Chairman. Ms. Kirkpatrick.
    Ms. Kirkpatrick. Thank you, panel, for being here. I 
represent a very large rural district in Arizona, and my staff 
and I talk with thousands of veterans, and it is very evident 
that housing is an acute need for veterans in rural Arizona and 
maybe throughout the country in rural areas. And so my question 
is, what is being done about that and especially in light of 
the VA reform bill that we recently passed allowing veterans to 
get care in their local communities where they live, under HUD-
VASH, are they going to be able to get that in their 
communities? Are they going to be able to stay in their 
communities, or are they going to have to relocate just to get 
housing?
    That is my general concern. I don't know who on the panel 
can best answer that. I will let you sort that out, but that is 
what I would like to hear about.
    Dr. Sherin. I have a few comments about that. At Volunteers 
of America in Northern Louisiana, we actually just received a 
pilot grant from the VA specifically to connect veterans in 
rural areas in the Tri-State area around Northern Louisiana to 
the services that they need around the horn, you know, 
healthcare services and human services.
    In addition, we are looking to obviously provide housing 
through the HUD-VASH program when we can. I think that the 
challenge in rural areas is obviously significant. Leveraging 
technology is one part of the solution, and I think that the 
VA's willingness to outsource services to non-VA providers is 
going to be very, very important in rural areas going forward. 
And I would say this new generation, particularly those 
suffering from post-traumatic stress are retreating to more 
rural areas, and we need to be aware of that and get out ahead 
of that movement.
    Ms. Kirkpatrick. And let me just mention, I am hearing from 
veterans on housing, not necessarily who are living on streets 
or in the woods, but they are living with their children, or 
grandchildren, or friends. And in my mind, they still count as 
homeless because they don't have their own place. Mr. Downing, 
do you have anything to add?
    Mr. Downing. We work in 76 counties in Mississippi. Most of 
them are rural. We have the same issues. What we found is the 
SSVF grants allow us to go out there. Now, we partner with 
Voice of Calvary out of Jackson to provide services there 
because they have a whole history down there and we have found 
that that really works. So what we have done, again, is we 
have, in Mississippi, we have seven peers and 11 outreach 
workers who do nothing but go to those areas, deliver services, 
and then try to get local agencies to work with us and partner 
with us to sustain some service for individuals because a 3- or 
6-month process can get you to a little bit more stability and 
opportunity, but it is the long-term, how do we keep this going 
and keep you going in the right direction.
    So at this point we have 2 years of experience there, and 
we are finding that is what works there. But what we need to do 
is increase SSVF funding, especially in the rural areas because 
we need to do much more transportation, and we need to get 
professionals to move out there with us.
    I think what, again, what Dr.--is it Sherin?
    Dr. Sherin. Yes, sir.
    Mr. Downing. What he said was, that if we can get the VA to 
contract for those services and we can make them mobile and 
they go with us, it is just so much more effective.
    Dr. Sherin. If I may, I have mentioned earlier the concept 
of leveraging the National Center For Homelessness Amongst 
Veterans to create a larger grant opportunity. That grant could 
be named reintegration services for veteran families, as one 
example, which would have a number of different resources 
available to use through that very responsive mechanism.
    Ms. Kirkpatrick. Thank you, panel. Yes, yes, Mr. Berg.
    Mr. Berg. Just to say on this issue of housing, I think 
this is a longer-term problem that people on this committee are 
going to have to deal with. The long-term trend in the cost of 
rental housing is up compared to the rest of costs of living. 
We went through a period in the mid-to late zeros where we had 
sort of a temporary lull in that, but housing costs are going 
to continue to be more and more of a burden. If the VA benefits 
system doesn't find some way to take account of that, they are 
going to leave more and more veterans pushed into homelessness 
and pushed into poverty.
    Ms. Kirkpatrick. Right, I completely agree. I think this is 
an absolutely top priority that we have got to address. And we 
don't even get to providing healthcare or mental healthcare 
without providing that housing stability. My time is up, but I 
thank the panel very much and I think we need to focus on this 
going forward. Thank you. I yield back.
    The Chairman. Thank you, Ms. Kirkpatrick. To the first and 
second panel, please accept our apologies. We are going to have 
to step out. We have a series of votes right now. We should be 
able to return in about 30 minutes so we will stand in recess 
until that time.
    [Recess.]
    Mr. Lamborn [presiding]. The committee will come back to 
order. We will resume the questioning of the first panelists. I 
want to thank you for staying here. We were interrupted. The 
chairman has so much going on and--all of us do. Important 
votes taking place, and then we leave for the rest of December 
to go back to our districts. So thank you for your indulgence 
in staying here and being willing to continue answering 
questions.
    And, at this point, we are to Representative Walorski.
    Ms. Walorski. Thank you, Mr. Chair.
    Mr. Lamborn. The floor is yours.
    Ms. Walorski. Thank you, Mr. Chairman. Thank you to the 
panel, also, for being here. I am grateful for the work that 
you all do and--and for the heart that you have and your 
diligence in continuing to make a difference.
    And I think one take-home--take-away that we can take home 
today from today's testimony is that there is measured success 
when local programs are tailored to meet the needs of veterans 
and take charge of the homeless veteran population. And in my 
district, although it does not receive any grant money from the 
VA, but we have the Robert L. Miller Sr. Veteran's Center in 
downtown South Bend, Indiana. It has 24 beds. They are always 
full. And the facility has an incredible proven track record. 
But, obviously, there is--you know, it is a small--it is a 
small step forward. We have other homeless shelters as well. 
But for us, in the middle of getting into winter now, everybody 
will be full and there is still going to be a need.
    But their story does go to show that local community 
organizations doing the work on the ground achieve results. 
And--and that is why I am glad you are here, to hear about 
other stories, winning stories, things that work. But, I guess, 
I share the same passion you do that, for every success story, 
there are so many folks that are standing in the shadows that 
are counted as just nameless, homeless veterans.
    The question I have is: In the research that you have all 
done in some of your--some of you maybe have alluded to a 
little bit of this. But in the research that you have done for 
the folks that come to your facility or that you end up 
involved somehow with an outreach as a net, what are the 
backgrounds that lead a lot of these veterans to homeless? And 
the one thing I want to know--I know some of you are going to 
say it is economic, it is mental health issues. And we get the 
same thing on our end in just handling our district phone 
calls.
    But I just want to draw your attention to one really quick 
story. We have a--one of the first times I dealt with this 
really up close and personal was the homelessness veterans was 
the shelter in our area. But, secondly, when I was elected, we 
got a call last year from a homeless veteran. And he said, ``I 
am living in my car and I have lost everything.'' And his 
issue, though, to me, was, you know, just another frustrating 
point about the efficiency of services delivered by the VA to 
the veteran community. This guy wasn't homeless. He became 
homeless. He lost his house and he lost everything but a car. 
And he called us because he had filed claims with the VA, and 
this went on for years. And we got involved and started to run 
the traps on that claim. And part of the claim was that he was 
unemployable with 100 percent service connected PTSD.
    And after--years after he has been homeless, living in car, 
lost his family, lost everybody, we chased the bunny trail and 
he began to get the money--the back money that the VA owed him 
from some 4 or 5 years ago.
    Today, our happily-ever after story is today, he is back on 
his feet. He has a home. His family is reunited. And the story 
ends happily. But there is still even hundreds in my own 
district where, you know, that is never going to happen. But 
when you look at the breakdown of a pie chart and say, if today 
the VA could run no backlogs, completely efficiently and all 
services rendered, delivered, and all that kind of thing, if 
the veteran was number one and we could solve this today with 
just that scenario, which I know, you know, is kind of 
hypothetical, how many veterans are coming into your services 
that perhaps could be--put back on the right path, if they had 
the claims resolved and really were not fighting with the 
bureaucracy of the VA itself? And I am just going to open up to 
whoever wants to answer that.
    Dr. Sherin. Well, you know, it is--I mean, it is a tough 
question. Obviously, if we could get perfect service out of all 
the different agencies, fewer veterans would fall out. What I 
have said for a long time--and I continue to say--is that the 
biggest problem is actually accessing resources, which is why I 
continue to push at Volunteers of America an effort to create 
what we like to think of as community concierge, which is 
veterans helping veterans, as battle buddies, navigate the 
systems. Okay. A veteran can engage another veteran better than 
anybody.
    Ms. Walorski. Right. Exactly.
    Dr. Sherin. Family relationship.
    Ms. Walorski. Yes.
    Dr. Sherin. Then, if they are supported by an organization 
like Volunteers of America or others who are on the panel, they 
have the ability, they can develop the process and content 
expertise that they need to navigate the systems. And then, 
when they show up at a nonprofit, at the VA----
    Ms. Walorski. Right.
    Dr. Sherin [continuing]. Anywhere----
    Ms. Walorski. Yes.
    Dr. Sherin [continuing]. Together, they are stronger.
    Ms. Walorski. Yes.
    Dr. Sherin [continuing]. At kicking down the door and 
getting access to that resource.
    Ms. Walorski. I agree. And that is why my hand and my heart 
goes out to you because what you are doing--and in my own 
community with the Miller Homeless Vet Center, privately run, 
privately funded, you know, no Federal money coming in, but 
they have certainly led the way. And my hope would be, for 
communities like ours, that we would be able to leverage more 
grant money that comes into communities to say, lets drive the 
money--I would rather see the finances driven to the frontline 
than held up in a bureaucracy. That is just the kind of--that 
is just how--in my world, it is so much more efficient and--but 
I applaud your efforts.
    And if you just--if you could indulge me, Mr. Chairman, one 
second. If there was one thing the VA could--could do today, 
would it be the access of resources for all of you, as for Dr. 
Sharin?
    Mr. Downing. It would for me.
    Ms. Walorski. Yes.
    Dr. Sherin. Yes.
    Ms. Walorski. Okay. Thank you, Mr. Chairman.
    Mr. Lamborn. Thank you.
    Representative O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chair.
    I wanted to begin by joining my colleagues in thanking Mr. 
Michaud for his service. This is the last day, I hope, of my 
first term in Congress. And serving on this committee with you, 
I have learned a lot and your style of leadership and your 
commitment to veterans has really been inspiring. And I--that 
inspiration will continue long after you leave. So I just want 
to thank you for your work for everyone that we serve on this 
committee.
    And then for--Dr. Sherin, I really enjoyed your comments 
about, in reading some of the backup in your written comments 
and testimony about peer-to-peer services. And you cite a New 
York Times article, and it says this is a way to treat 
depression in the general population that might go viral. And 
you suggest how that might work for veterans, and you suggest 
something like an SSVF-type grant to fund that.
    Can you talk a little bit about how that might work? What 
that might cost? How that grant might be structured? That seems 
like something that this committee could pick up and run with.
    Dr. Sherin. Well, I mean, to start, we want to try to, I 
think, use the SSVF program as a prototype because it is so 
flexible and responsive. And in the hands of community 
providers and, also, veterans who are being served, there is a 
clear recognition that this program works. So, once we have a 
mechanism like this, it is something that we should leverage 
because what it allows for the VA to do is to engage community 
providers in a direct way and to maintain fidelity with the 
needs of the community and the individuals.
    There are a lot of funds--there are a lot of funds that are 
floating around doing different things. If we were able to, for 
one example, take HVRP money or money for employment and funnel 
it through SSVF, that would be an effective way, I think, to 
get services to homeless veterans so that, once they were 
actually housed, we could work on getting them employed.
    Same thing around, you know, kind of around this circle of 
the human services: Leveraging peers is a critical part of the 
solution because--because many homeless veterans become 
disenfranchised, they become isolated. When you are in the 
military, the community, the family that is built is a critical 
part. And when you return to the country and things start to 
fracture around you, you become isolated. And, you know, we 
call it the other LOL, which--you know, which is the lethality 
of loneliness. Because veterans become isolated.
    And, you know, the homeless lifestyle does not lend itself 
to, you know, any type of thriving behavior. So if you 
incorporate resources for a--for a program that is operated 
like SSVF. What that will do is it will give the homeless 
veterans that family piece so that they can belong, and also, 
the ability to access resources.
    And I--sorry to be carrying on. But the other thing here is 
that this is an opportunity for a massive employment 
initiative. We could employ a huge number of veterans to do 
this work. And the veterans that do this work--and I say this 
from my own experience. I met with 15 of them yesterday in Los 
Angeles, that work gives them purpose, because that purpose is 
lost as well when they return.
    Mr. O'Rourke. Great. Great idea.
    For, Ms. Crone, I spend a good deal of time when I am back 
in El Paso with the veterans in our community. We have a 
veterans town hall every quarter and a monthly town hall. And 
we have actually held some of them in a homeless shelter that 
primarily serves veterans. And so anecdotally, I have gotten a 
lot of good feedback.
    We have the point-in-time count, you know, 56 veterans in 
El Paso. We know how many HUD-VASH vouchers there are 
outstanding. We know how many Dollars SSVF have come into the 
community, who holds the grant. How can I assess, what is a 
good measure? I know no measure will be perfect. But how do I 
know how El Paso is doing? How do any of us know how the 
communities are doing using the resources that are coming 
through and holding those who have those resources accountable 
for their use?
    Ms. Crone. That is a great question. So I appreciate it. 
Thank you very much.
    Mr. O'Rourke. You have 20 seconds to answer that question.
    Ms. Crone. Okay. But--oh, okay. Great.
    Mr. O'Rourke. No. I am kidding. I am kidding. Hopefully the 
chair will give me some time.
    Ms. Crone. The point-in-time count is a useful number, but 
you also want to be looking at factors like the lease-up rate, 
how quickly is someone being referred for a HUD-VASH voucher 
and how long from that referral point does it take until they 
are leased up. You want to be looking at their continuation in 
that permanent housing, once they are leased up with HUD-VASH.
    For those individuals that don't need that extensive 
intervention--so maybe people who are going through SSVF--you 
want to be looking at how quickly, again, they are being placed 
into permanent housing, what the cost replacement is from year 
to year and its increase--or its decrease every year. It is 
improved every year with SSVF nationally. You also want to be 
looking at, for those individuals who are seeking out 
employment services, which ones are getting employed, what 
their wages are, and how long they are retaining that 
employment.
    Mr. O'Rourke. Is this something that is measured? And I can 
ask the VA. I know they are the next panel. Is this something 
that is measured by the VA for each community which they serve, 
the different metrics you just gave us?
    Ms. Crone. I think your best way to get some of that 
information is to directly ask the providers. They do pretty 
extensive tracking of their programs. And some of those 
programs, including the employment services, might be through 
Department of Labor.
    Mr. O'Rourke. Thank you.
    Ms. Crone. But, yes, you can ask me.
    Mr. O'Rourke. Very, very helpful. Thank you, Mr. Chairman.
    Mr. Lamborn. Representative Walz.
    Mr. Walz. Thank you, Mr. Chairman. Before I start, I think 
it maybe has all been said, but I wanted to thank the ranking 
member, Mr. Michaud, as everyone said here, just an absolute 
pillar of this committee and of Congress, a close friend. When 
I think now people from Maine, I think of Mr. Michaud, no 
nonsense, practical, hearty, dependable, consistent, all those 
things.
    So I was thinking of my district, something to give you 
that I thought fit those attributes. And in my district, every 
single can of Spam in the world is produced there. So I think 
of you. I am going to--so we will pass it down.
    Well, to each of you, thank you. You are doing the good 
work. I appreciate this, and many of you have been here. I want 
to say a couple of things.
    First of all, Mr. Landis, thank you. I have been out to be 
with you. And in full disclosure, my wife and I support what 
you are doing out there and I appreciate the email updates and 
all the things you are doing. It is a model that many of you 
have here. It is not the same model, but it is a model based on 
efficiency, delivery, and that holistic approach. And for that, 
I am very, very grateful.
    Dr. Sherin, in following up on my colleague's insightful 
questions on this peer-to-peer piece, as we sit here today, we 
are waiting. And at any point, that Veterans Suicide Bill and 
the ones you helped on are going to get there. A key component 
of that was the peer counseling piece. So I thank you for that. 
It looks like--and we just got word from the White House, they 
are waiting for it to sign it. So thank you for that. And I 
think we are moving forward.
    A couple things I want to ask each of you. This issue of 
rural delivery--and I know I hear many of you talk about that. 
Mr. Downing, you talk about it. One of the realities we are 
going to have to understand, about 15 percent of the population 
is rural, like southern Minnesota, northern Maine, places like 
that, El Paso and others that you get out in the countryside. 
But about 45 percent of our warriors come from there. I think 
that is cultural, far more than it is economic. But it is a 
reality.
    One of the issues we have to grapple with is the shortage 
of providers is both in the private sector as well as in this. 
So one of the things, as we look for these solutions, and we 
look for them, it is not as simple as just putting the people 
into the private sector because, in many cases, those providers 
aren't there anyway. And so I say that because I think--and 
many of you are thinking about this, this holistic approach, 
and I have seen this in my community. We have MACV, which an 
integrated housing unit. Minnesota Valley Action--and they do 
it right. And we integrated and started early on after folks in 
Buffalo showed us to do this veterans courts, where we 
understand, instead of the criminal justice system, it is 
entrance into the community. That is private sector, working 
with the county, working with the city, working with the State, 
working with the VA.
    So I think there are models out there. I caution us, 
though, from saying one way or another. If I go to charity 
navigator, not all the private charities are doing a wonderful 
job as many of you are. And I think it is our responsibility 
here and it is VA's responsibility to be that clearinghouse and 
to put those things into place. And I hear you on this. And I 
am saying, well, maybe one of those major responsibilities 
should be moving the resources in an accountable manner. I 
think I agree with you on this. I have two questions, though, I 
want to ask on this.
    I--and many of them are here, and I know the Secretary and 
others will be here. And I--this isn't the PIC, the turf battle 
fight or whatever, but it seemed like to me as a veteran, one 
of the things is the disjointed nature of where many services 
are. There are 40,000 charities for veterans in this country, 
whatever.
    Does it make sense to have DoL, Department of Labor, and VA 
have pieces of this? My goal was to bring it all into one. And 
that it was not to disparage either agency on that, but as a 
simple alignment. I ask each of you who deal with this on a 
regular basis.
    Mr. Downing. I stopped all my DoL programs just because I 
had a difficult time with all the different reporting things, 
and it was easier for me to meet the various State funder 
sources in the VA and move on. And through SSVF, I was able to 
train people to be--to do job search, and we have built that 
component in. And we, also, in most of the States we are in, 
are partnering now with their employment divisions, okay, and 
their training divisions, and we are finding that it works 
extremely well.
    Mr. Walz. Do you think there is expertise in VA to clear 
some of that to get to those----
    Mr. Downing. I do. I think, again, in the homeless 
program--and I want to go back here because VHA, I have real 
fears about. But the homeless program, the Center for 
Excellence, are very good at contracting. And we just need to 
fund them and encourage them to.
    I think the second thing is, in rural areas, technology--I 
manage 76 counties in Mississippi from western Massachusetts.
    Mr. Walz. Okay.
    Mr. Downing. You know, I pick up--or my staff pick up a 
phone and they can tell you where every car is, who is on time 
for their appointments, who isn't, how many people are served 
there. That is all doable. But we need to have the resources, 
and we need to have the creative minds that say, hey, that is 
acceptable. Do you know what I am saying? It is hard to get the 
big system to buy that. So I think we are very capable of it.
    Mr. Walz. Well, I will let some of you--I am going to save 
this one for VA. But I want you to think about it. I have been 
in, you know, I am sure I have spoken about it till everybody 
is sick of hearing about this. But this idea of the strategic 
vision, the quadrennial veterans review type of thing. How does 
homelessness fit into their broader strategy? Do you feel like 
it is taken into that, or do we end up having programs that get 
attached on the side all the time? I am just wondering where 
homelessness fits into that veterans strategy? If any of you--
do you think it is there? My time is up and just--why don't we 
hold it. I will let them answer, but just give you some----
    Mr. Lamborn. Yes. Representative Walz, I just--I hate to 
keep moving, but----
    Mr. Walz. No, no. If we are on the right track and all 
that--I yield back.
    Mr. Lamborn [continuing]. We have votes in about 45 
minutes, so--and we have another panel of three people yet to 
go.
    Representative Kuster.
    Ms. Kuster. Thank you very much, Mr. Chair. And I, too, 
want to commend Mr. Michaud for his wonderful leadership on 
this committee and thank you for mentorship to the new members 
of the committee.
    I just wanted to ask a couple of questions. Mr. Downing, 
nice to meet you. You have a project that we are trying to get 
off the ground in my district of Plymouth, New Hampshire.
    Mr. Downing. Yes, ma'am.
    Ms. Kuster. And I understand we have had some zoning board 
issues with a couple of the sites, and I am very hopeful that 
we will be successful with this site that you are looking at 
now.
    Mr. Downing. I think we are. We had an offer that was 
accepted on the property. We are trying to work out the terms 
of that right now.
    Ms. Kuster. Terrific. Terrific.
    Mr. Downing. So--and we have talked to Taylor Caswell. And 
we are moving ahead and doing applications on the financing.
    Ms. Kuster. Terrific. And so what I wanted to ask about is: 
Can you help me understand, you or any other members of the 
panel, how we go about the funding? What is the Federal rule in 
the actual capital funding? We have talked about that, sort of, 
the initial expense. I am very confident in the model that you 
are choosing of relying upon our community providers. We have a 
great deal of interest in this community. It is rural, but we 
have strong support, and I am very much looking forward to you 
coming to New Hampshire. Because, as they have told me, you are 
the gold standard and we have a great----
    Mr. Downing. Thank you.
    Ms. Kuster [continuing]. Deal of need in that region. But 
can you just educate me on what the sources of capital funding 
are for these projects?
    Mr. Downing. First of all, we get in line with every other 
affordable housing group on the home, if and however that money 
gets passed through in your State, we applied for that. Tax 
credits, both Federal and State, then, become issues. And we 
applied for those where they are applicable. And then we 
normally have approximately a 20 percent shortfall on anything 
we are going to build. And we usually go out and borrow some of 
that money and see what we can fund develop for the balance. 
And then that is how we put our model together.
    There are two other models now that are really--we are 
looking at, one that I am doing in partnership with a major tax 
credit provider. And they are--they feel that we could more 
rapidly get to building using that model. And I have just met 
with a major defense contractor, and we are going to be meeting 
with them about buying the credits at a ``Dollar"on a ``Dollar 
" for veterans' housing. And if we could pull that off, it 
would then really rapidly increase the time.
    So that--give an example, in Plymouth, New Hampshire, now 
that we finally found the piece of land and we are in agreement 
on the price and fair and we are all moving forward, it would 
be--with a more streamlined model, we should be able to start 
building in 18 months. It is probably going to take us, in the 
model we are in right now, because of the lack of tax credits 
in the State and the size of the State limits that, I believe 
we are going to be 2\1/2\ years to 3 years to finance. Okay.
    Ms. Kuster. I would love to help you out and maybe make 
some introductions to some of our businesses in the community 
that could be helpful.
    Mr. Downing. Thank you. I would appreciate it, ma'am.
    Ms. Kuster. And we welcome you in my district.
    Mr. Downing. Thank you.
    Ms. Kuster. Thank you.
    I would like to ask--and this is for anyone in the panel. I 
am interested--we have talked about VA products and programs 
that are available and we have talked about private sector. Do 
you envision an impact, as in New Hampshire we have just 
expanded Medicaid under the Affordable Care Act. It is a big 
change for us. We are going to have 50,000 people with health 
insurance for the first time, many of them ever. And given our 
high population of veterans, do you envision this being 
helpful? And I think one of you had mentioned that 
Massachusetts--that you encourage them to take the healthcare 
coverage under the Massachusetts plan. Will this help provide 
alternatives so that our veterans can get the services they 
need in the community? And any comment from anyone on that?
    Mr. Berg. Well, I would start by saying just the expansion 
of Medicaid really, by making sort of mental health treatment 
available to a lot more very low income people, helps on the 
issue of homelessness generally.
    Now, for veterans, in the past, we have thought, okay, VA 
offers mental healthcare where that--that, at least, is more 
than people who aren't veterans get. I think there is a lot 
more talk about how these federally-funded systems should 
interact, the one for veterans and the one for nonveterans.
    The other thing I would say is that there is a certain 
number of veterans, people who served on active duty in the 
military who are not eligible for VA healthcare. Based on a 
series of complicated rules. The Medicaid expansion is going to 
be what they need to rely on to get mental health agreement.
    Ms. Kuster. Excellent.
    My time is up. But I appreciate it, and I certainly am 
hopeful in New Hampshire that that will happen and across the 
country. Thank you, Mr. Chair.
    Mr. Lamborn. That concludes our questions. Thank you all 
for being here on this important issue. We appreciate your 
testimony.
    I would now welcome our second panel to the witness table. 
Joining us from the Department of Veterans Affairs is Lisa 
Pape, the executive director of Homeless Programs. Ms. Pape is 
accompanied by Thomas O'Toole, the Acting Director of the 
National Center for Homelessness Among Veterans.
    We are also joined on our second panel by Jennifer Ho, the 
senior advisor to the Secretary on Housing and Services from 
the Department of Housing and Urban Development; and the 
Honorable Keith Kelly, the Assistant Secretary of Labor for the 
Veterans Employment and Training Service for the Department of 
Labor.
    Thank you all for being here. We will begin with Ms. Pape. 
And if you are ready, you, may begin with your testimony.

STATEMENTS OF LISA PAPE, EXECUTIVE DIRECTOR, HOMELESS PROGRAMS, 
  VETERANS HEALTH ADMINISTRATION, U.S. DEPARTMENT OF VETERANS 
   AFFAIRS, ACCOMPANIED BY THOMAS O'TOOLE, ACTING DIRECTOR, 
     NATIONAL CENTER FOR HOMELESSNESS AMONG VETERANS, U.S. 
DEPARTMENT OF VETERANS AFFAIRS; JENNIFER HO, SENIOR ADVISOR ON 
   HOUSING AND SERVICES TO THE SECRETARY, U.S. DEPARTMENT OF 
  HOUSING AND URBAN DEVELOPMENT; HON. KEITH KELLY, ASSISTANT 
 SECRETARY OF LABOR, VETERANS EMPLOYMENT AND TRAINING SERVICE, 
                    U.S. DEPARTMENT OF LABOR

                     STATEMENT OF LISA PAPE

    Ms. Pape. Good morning, chairman, and Ranking Member 
Michaud, and members of the committee. On behalf of Secretary 
McDonald, let me thank you and the committee for the 
opportunity to review our progress to prevent and end 
homelessness among our Nation's veterans. As you have 
indicated, I am here and pleased to be accompanied by Dr. 
Thomas O'Toole, the acting director of our National Center on 
Homelessness Among Veterans. And I have to just say thanks to 
the panel before us for all their good work and great 
partnerships.
    This is the time to prevent and end homelessness among 
veterans. We owe every man and woman who has worn our Nation's 
military uniform no less. With the help of Congress, our 
Federal partners, and community providers, we have been making 
unprecedented strides, as you have heard today, to engage, 
support, treat, and house homeless and at-risk veterans. While 
the numbers are going down from almost 56,000 in 2013 to 49,900 
on any given night in 2014, we know we have to accelerate the 
pace, use data to drive our results, leverage mainstream 
systems, target resources in greatest need, and work better, 
faster and together.
    Our goal: A systemic end to homelessness, no veteran 
sleeping on our streets, and every veteran having access to 
permanent housing. We have will have the capacity to quickly 
connect homeless or at-risk for homeless veterans with the help 
they need to achieve the housing stability they deserve. The 
ultimate goal is that all veterans have permanent sustainable 
housing with access to high quality healthcare.
    VA knows we can't prevent and end homelessness alone, and 
we are committed to continued collaboration and fostering of 
strong partnerships. We have close working relationships with 
Federal partners, like the U.S. Interagency Council on 
Homelessness, HUD, Department of Labor, and others. 
Partnerships are key.
    I would like to take a moment to thank our local partners 
from around the country. Your interest in being part of a 
collaborative solution to ending veterans' homelessness is 
extremely valuable and greatly appreciated. Lastly, I want to 
acknowledge the homeless and formerly homeless vets who are 
watching or here with us today. I thank you for our service, 
and we look forward to providing you with the continued care 
and support you deserve.
    Our strong interagency collaborations have resulted in 
successful policies and programs. With the help of our partners 
and, as you have heard today, an unprecedented 33 percent 
decrease in the number of homeless--number of veterans without 
permanent housing who have stayed in shelters, missions, SROs, 
or in any other unstable or nonpermanent situation, and a 42 
percent decrease in those who were literally sleeping on the 
streets in boxes or in abandoned buildings.
    Our premiere collaboration is with HUD, in the Housing and 
Urban Development Veterans Affairs Supported Housing Program, 
HUD-VASH. Highly vulnerable veterans who have experienced 
homelessness for extended periods of time are best served 
through HUD-VASH. This collaborative provides housing choice 
rental assistance from HUD, with intense case management 
assistance from VA. Last year, nearly 56,000 veterans were 
assisted. We know permanent supported housing is the most 
effective tool for serving these chronically homeless veterans.
    The SSVF, Supportive Service for Veterans Families program, 
rapidly rehouses homeless veterans and their families and 
prevents homelessness for those who are at risk. In fiscal 
years 2014 and 2015, the SSVF program awarded $507 million in 
grants that expanded SSVF from 319 community agencies to 383. 
Last year, our grantees served nearly 130,000 veterans and 
their family members, of which 27,500 were children. 
Additionally, 81 percent had a successful housing outcome.
    The homeless providers grant per diem is our largest 
transitional housing program. It is for veterans who have need 
of extended rehab, focused help with employment, and housing 
searches, and are served in this program. In 2014, over 23,000 
veterans were admitted and 14,600 exited into permanent 
housing.
    For veterans entering the justice system who are already 
dealing with mental health or substance abuse issues, we have 
established Veterans Justice Outreach; 248 full-time 
specialists working directly with justice officials. VA works 
with treatment courts to ensure veterans get the treatment they 
need as opposed to using incarceration as the alternative.
    In conclusion, VA, with our partners, are now closer to its 
goal than any other point in history. We know that targeting 
resources, utilizing evidence-based practices like Housing 
First, and strengthening collaborations are key. Through 
Congress's continued support, our vast partnerships and the 
commitment of our Federal partners we have made significant 
progress in our effort. We recognize that ending homelessness 
is not an endpoint, but a way point. We can never become 
complacent about our achievements or the same conditions that 
gave rise to homelessness will spawn this once more. VA will 
not rest.
    Mr. Chairman, this concludes my testimony. My colleague and 
I are prepared to answer questions.

    [The prepared statement of Ms. Lisa Pape appears in the 
Appendix]

    Mr. Lamborn. Thank you. Ms. Ho, you are now recognized for 
5 minutes.

                    STATEMENT OF JENNIFER HO

    Ms. Ho. Chairman Lamborn, Ranking Member Michaud, and 
members of the committee, I am Jennifer Ho, senior advisor to 
HUD Secretary Castro. Thank you for the opportunity to discuss 
our collaborative work to eliminate veteran homelessness in 
America.
    Since launching Opening Doors in June of 2014, the number 
of veterans experiencing homelessness on a single night has 
dropped by 33 percent to just under 50,000 veterans. This 
progress would not have been possible without funding from 
Congress. Thank you.
    While much more needs to be done, we know that 
collaboration and new resources strategically deployed are key 
to our progress. HUD VA and the U.S. Interagency Council on 
Homelessness work together to combat a problem that cannot be 
solved by one agency alone. We work together every day to align 
our programs and to use limited resources as efficiently as 
possible.
    Our most collaborative effort is HUD-VASH, supportive 
housing that combines housing vouchers from HUD with case 
management and clinical care provided by VA to assist 
vulnerable and chronically homeless veterans. Together HUD and 
VA use data to drive decisions about HUD-VASH allocation, based 
on both homelessness prevalence and local capacity to 
administer new vouchers.
    Since 2008, nearly 70,000 HUD-VASH vouchers have been 
awarded to public housing authorities in the every State, 
District of Columbia, Puerto Rico, and Guam. About 11,000 new 
HUD-VASH vouchers were awarded in the last several months. The 
success of HUD-VASH requires new collaborative partnerships 
locally between VA medical centers, public housing agencies, 
and nonprofits providing homelessness assistance. As 
communities identify challenges such as low voucher utilization 
or a lack of affordable housing, we are helping resolve 
partnership, policy, and practice issues. By overcoming 
challenges together, our collaboration is strengthened and 
better able to address the next challenge.
    In order to ensure that HUD-VASH investments are used 
strategically, HUD and VA have a performance target to use at 
least 65 percent of HUD-VASH vouchers for veterans experiencing 
chronic homelessness. These veterans have long histories of 
homelessness and very poor health and, therefore, typically 
require long-term housing assistance and support. HUD-VASH 
supports veterans for as long as they need assistance.
    HUD and VA are both committed to Housing First. Housing 
First means veterans get intensive supportive services to help 
them, first, find and keeping housing. A homeless veteran can 
more easily engage in services and address his or her chronic 
health conditions or find a job once he or she is no longer 
dealing with the chaos and uncertainty of homelessness. 
Research has demonstrated that permanent supportive housing, 
using a Housing First approach, not only ends homelessness for 
people who, in the past, would live on the streets or in 
shelters for years, it breaks the costly cycle through 
shelters, emergency rooms, hospital, detox centers, and jails.
    We continue to work with local communities to improve the 
performance of HUD-VASH. One of HUD's major technical 
assistance efforts has been boot camps in which community 
partners are brought together to answer the question: How can 
we more effectively and efficiently end veterans homelessness 
locally? Nationwide, over 50 communities have participated in 
boot camps, which are a collaborative effort between HUD, VA, 
the U.S. Interagency Council on Homelessness, Rapid Results 
Institute, and community solutions.
    The results are real. In some cities, the time it used to 
take for a veteran to actually get the keys to an apartment was 
6 months or more. After participation in boot camp, communities 
have shrunk that time to as little as 30 days. Many communities 
like Jacksonville, Florida, set and met ambitious goals of 
housing 100 veterans experiencing chronic homeless in 100 days. 
Large gains can be made in a short period of time when all the 
partners are at the table.
    As Ms. Pape discussed, the VA built on the progress made 
through boot camps in the 25 cities initiatives will continue 
to help communities improve the identification, assessment, and 
housing placement of veterans through HUD's supportive new zero 
2016 campaign in 71 cities and four States across the country. 
Each community is developing specific targets for the number of 
people they must house each month to end veteran homelessness 
by December of 2015.
    This effort dovetails nicely with the mayor's challenge to 
end veteran homelessness championed by First Lady Michelle 
Obama. I am excited to announce that more than 355 mayors, 
governors, and county executives from across the country have 
pledged to end veteran homelessness in their communities by the 
end of 2015 by strengthening the local partnerships.
    Mr. Chairman, and members of the committee, thank you for 
your continued support of this important work. I hope I have 
been able to portray the unprecedented level of Federal 
collaboration that is accelerating our progress toward ending 
homelessness among veterans in America. Thank you very much.

    [The prepared statement of Ms. Jennifer Ho appears in the 
Appendix]

    Mr. Lamborn. All right. Thank you.
    Assistant Secretary Kelly, you may speak now. Thank you for 
being here.

                    STATEMENT OF KEITH KELLY

    Mr. Kelly. Good afternoon, Chairman Lamborn, Ranking Member 
Michaud, and distinguished members of the committee. Thank you 
for the opportunity to participate in today's hearing, and 
particularly for this morning's panel. It was very energetic 
and robust and educational.
    My name is Keith Kelly, and I have the honor to serve as 
the Assistant Secretary for Veterans Employment and Training 
Services at the Department of Labor. The Department is 
committed to helping the administration meet its goal of ending 
homelessness among veterans in 2015.
    Secretary Perez and I know that one of the most important 
ways to prevent homelessness is through a good job. However, 
employment alone is not a guarantee in preventing veterans from 
falling back into homelessness. It requires a coordinated 
effort between our Federal partners such as VA, HHS, SBA, and 
HUD, as well as other State and local organizations, 
nonprofits, and the private sector.
    Currently chaired by Secretary Perez, the U.S. Interagency 
Council on Homelessness has helped us in providing a national 
partnership at every level to reduce ending homelessness in the 
nation. As you know, and stated in some of your testimony this 
morning, we have already made substantial progress.
    At DoL, our primary program aimed at eliminating 
homelessness among veterans is the Homeless Veterans' 
Reintegration Program, referred to as HVRP. In addition, 
veterans receive priority of service in all of the employment 
and training programs funded directly, in whole or in part, by 
the Department of Labor. Through the HVRP, DoL grantees assist 
homeless veterans in obtaining meaningful and sustainable 
employment. Each participant receives customized employment and 
training services to address his or her specific barriers to 
employment. Services may include occupational, classroom and 
on-the-job training, as well job search, placement assistance 
and post-placement follow-up services.
    HVRP operates on the principle that when homeless veterans 
obtain meaningful and sustainable employment, they really are 
on the path to self-sufficiency. HVRP grantees work with VA, 
HUD, HHS, and many other types of organizations. Actually, 
applicants must address how they intend to collaborate with 
others in their applications for funding.
    In fiscal year 2014, the HVRP program received an 
appropriation of just over $38 million, with which the 
Department awarded 37 new HVRP grants, 82 option year HVRP 
grants, and 18 grants for homeless female veterans programs. 
These grantees are expected to provide services to over 17,000 
homeless veterans with an estimated placement rate of 66 
percent at an estimated cost per participant of around $2,200.
    While my written statement goes into much detail about the 
Department's procedures for selecting grant recipients as well 
as measuring their performances, I would just note that HVRP 
funds are awarded to eligible organizations from a very 
rigorous competitive process. Following the award, the 
Department works closely with grantees to ensure they meet all 
our performance outcomes.
    On a personal note, my staff and I routinely visit our HVRP 
grantees when we travel around the country. And, as you heard 
this morning, we are consistently impressed with the passion 
and the creativity these dedicated organizations bring to their 
work to help homeless veterans. I would certainly encourage you 
to meet these great men and women as you travel around your 
districts.
    Just one example. We support the Volunteers of America 
Florida, a local chapter of one of the other witnesses here 
today. Through the HVRP program, they have successfully 
partnered with a security firm to put in place a direct 
referral system of the homeless veterans they are working with, 
once they are job ready. The grantee's staff assist each 
veteran with their application based on what the company is 
looking for, and then the company contacts the veteran 
directly. This streamlined process has resulted in many 
formerly homeless veterans getting back on their feet in a 
relatively short amount of time.
    Through HVRP, the Department also supports stand-down 
grants and technical assistance. The stand-down grant is 
typically a 2- to 3-day event involving various Federal, State, 
and local organizations. At these events, grantees provide 
homeless veterans with a variety of services, such as meals, 
clothing, employment services, referrals, and counseling. In 
fiscal year 2014, we awarded 66 stand-down grants for 
approximately $500,000.
    Additionally, the Department awarded two technical 
assistance cooperative agreements to support our grantees and 
disseminate best practices. One who testified this morning, The 
National Coalition on Homeless Veterans. And, finally, the 
Department of Labor is committed to the administration's goal 
of ending homeless veterans in 2015, and we look forward with 
the committee to ensure the continued success of our efforts.
    Mr. Chairman and members of the committee, thank you again 
this afternoon for the opportunity to testify. I would be 
pleased to answer any questions you have.

    [The prepared statement of Mr. Keith Kelly appears in the 
Appendix]

    Mr. Lamborn. Thank you.
    I will now yield myself up to 5 minutes for questions. Ms. 
Pape, programs to provide assistance to homeless veterans are 
provided by actually each of the three departments that are 
represented here in this panel. Earlier this year, VA, in 
particular, provided the committee with a list of 20 separate 
programs that VA operates to provide assistance with housing, 
healthcare, or employment for homeless veterans.
    Now, as we all know, large government bureaucracies are not 
known for being sometimes able to effectively communicate and 
coordinate efforts. So how do you ensure that these programs 
work in coordination to provide a seamless continuum of care 
for veterans in need and do not duplicate services?
    Ms. Pape. Thank you, chairman, for that question. And it is 
an important question. As you heard on the panel before us, the 
programs that we listed, the 20 programs are really 
complementary of each other and may build on each other. That 
is not to say there is not any duplication. Of course, right, 
we are constantly working to ensure that there is not, but they 
are more complementary. And we do many avenues and, even across 
department, to ensure that folks know about the programs and 
that we are not duplicating services to an extent that is not 
helpful in the system. So we track and monitor and evaluate 
regularly to ensure that the right veteran is going to the 
right level of service for the right amount of time, which is 
really key for this population. We also have regular subject-
matter expert reviews to ensure that programs are staying in 
their lanes but complementing each other.
    Let me ask if Dr. O'Toole would like to add, this is--
evaluation is his area.
    Dr. O'Toole. Great. Thank you. And, Mr. Chairman, it is a 
spot-on question and issue and one that, I think, is extremely 
important for us to have a focus to. Coordinating care is a 
challenge in the general healthcare system, not to mention 
issues specific to homeless and homeless veterans within the VA 
system.
    I am a primary care provider and have been taking care of 
homeless persons and homeless veterans now for almost 25 years. 
And tomorrow I will be in clinic and see probably about 10 or 
15 veterans in the morning, and each one is going to have a 
litany of different problems and issues that will likely be 
crossing into the territory of four or five different programs 
within each context. And how we connect the dots in those 
programs is really a significant issue and challenge and, also, 
an area of very specific focus for us.
    Mr. Lamborn. And how do you do that?
    Dr. O'Toole. Well, the most important thing is we pick up 
the phone and talk to each other. And we--when we do pick up 
that phone, we need to know who it is we are talking to so it 
is not a cold call. And that is basic primary care, basic care 
coordination 101, and it is how we have to do it.
    And VA has made significant strides within the homeless 
program arena in the past few years in the context of this 
initiative in reaching out to community partners and really 
including them in that process as well. Our local facility has 
a homeless summit on a quarterly basis where all of the 
community agencies that we partner with come in, meet. So, 
again, there is that face time.
    From a data and analytics perspective, this is where we are 
moving in the National Center on Homelessness Among Veterans is 
specifically directing its energies to how do we find and 
identify those veterans who are falling through the cracks? It 
is a complicated, bureaucratic system, and it is easy to have 
that happen. And being able to use our analytics capacity to 
identify down to the Social Security number who those veterans 
are and how can we redirect those services is, right now, where 
we are really focusing our energies.
    Mr. Lamborn. Okay. Thank you so much. Representative 
Michaud.
    Mr. Michaud. Thanks very much, Mr. Chairman. Before I ask 
the question from Ms. Pape, I want to thank you and the many 
employees at the VA for your efforts to care for our veterans 
and to serve our veterans as well all across the country. I 
think too often the media headlines level broad accusation 
against all VA employees, not just the ones who are--have bad 
performance issues. There are good news stories, and there are 
good VA employees. So keep up the good work and continue to 
improve on that as well.
    But likewise, with the first panel we had earlier this 
morning and the veterans service organizations who work with 
the Department and veterans, I want to thank all of you as well 
for your continued effort in that partnership working with the 
Department to make sure that Congress does what we have to do 
to provide the resources that we need for the Department. And I 
want to thank you for that, the essential work that each and 
every one of the VSOs and organizations do for our veterans.
    My question is: It seems that further reduction in 
homelessness will become increasingly difficult as the more 
severely mental ill and substance-dependent veterans are 
treated and housed. Is that a fair assumption? And, if so, what 
is the VA strategy plan for addressing these chronic 
homelessness?
    Ms. Pape. Thank you, Mr. Michaud, and thank you for 
acknowledging the work we are doing.
    So it is a fair assumption, right, as--as we start to 
continue to reach into the communities and find every homeless 
veterans, we find harder-to-reach folks who are living in 
camps, not directly in urban settings where we have to find 
them, know them by name, and engage them into services. One of 
the initiatives Ms. Ho referenced was this 25-city initiative 
that VA is running with our Federal partners, as well as some 
other contractors we are working with. It is to build a 
coordinated entry system at the community level where it 
literally identifies by name every homeless veteran, so that 
even if they don't engage, we will know, and the community will 
know, who they are, so that we can continue to go back to them 
until we can get them to engage.
    Eventually, to our pleasant surprise, many, many of these 
veterans finally raise their hands and say, We want services. 
And that is because we have our partners at the table. They may 
not want it from the VA, but they will take it from one of our 
partners that you saw at the table and move them in. So it is 
knowing them by name, engaging them, and building a systemic 
system. And it cannot be the VA alone. It has to be all of us 
together.
    Mr. Michaud. Thank you for your answer. And you are 
absolutely right, it has to be all of you together. And as--VA 
can't do it all, and I am glad to see that you are reaching 
out. And I meant what I said about the VA's employees because I 
really look at, every time I go to stand down at Togus and 
Main, you know, and I see Susie Whittington, I mean she has 
just got so much energy out there and she really cares about 
all the veterans--homeless veterans in Maine. And I wish we 
could just bottle that energy and just send it throughout the 
whole, you know, Department as well. I am sure there are other 
employees such as Susie throughout the Department.
    So, once again, I want to thank this panel for your 
reference and the previously panel as well. With that, Mr. 
Chairman, I yield back the balance of my time.
    Mr. Lamborn. Thank you, Representative Michaud.
    Representative Walorski.
    Ms. Walorski. Thank you, Mr. Chairman. And, again, I would 
like to express my thanks as well for what the VA and the other 
agencies are doing in the housing and Department of Labor as 
well as for homeless veterans. I mentioned before, I have a 
homeless shelter in my town that is privately funded, the 
Miller Homeless Vet Center. And it has done a phenomenal job 
being very, very close, on the frontline. And I can't commend 
them enough for what they do. And they have the same heart and 
passion as well.
    The question I have, though, when we are talking about 
ending homelessness in veterans by 2015 is: The VA Inspector 
General came out last week with a report from the National Call 
Center for Homeless Veterans which identified over 40,000 
missed opportunities where the call center did not refer 
homeless veteran callers to medical facilities or close 
referrals without making sure homeless veterans actually 
receive their services. So what is the follow-up on that? 
What--where is the VA in addressing the concerns of the 
oversight of the IG?
    Ms. Pape. Good question. You know, we share your concerns. 
I read the report. It is disappointing for all of us, and 
frankly, it is just unacceptable. We regret that any veteran 
who was calling for information and a referral did not get the 
service that they needed.
    That said, you know, this was a journey for us. And when we 
set up the call center, it was a smart idea. We knew we needed 
a quick way to get veterans access to information. Frankly, it 
grew faster than we were able to execute and we didn't grow 
with it.
    Ms. Walorski. How many employees are in that call center?
    Ms. Pape. For the homeless hotline----
    Ms. Walorski. Yes.
    Ms. Pape [continuing]. There are about 60 employees, and it 
is coupled with the Veteran Crisis Line. That said, we have 
already--even prior to the IG report coming out, we have 
already started making improvements because we have to. Our 
veterans deserve that.
    Ms. Walorski. So in the improvements that you started to 
make, were those improvements in holding employees accountable 
or were the improvements in getting rid of the answering system 
so that it can't be left on auto to leave--what steps have you 
taken to keep the employees accountable?
    Ms. Pape. It is both. So we are in the process of 
finalizing an automated queuing system so that the answering 
machine can be gone, and that queuing system will allow vets to 
pick a number, 1, 2 or 3, or stay on the line and talk to a 
responder.
    We have also started looking into a workforce tracking 
system, which will allow an automated system for us to know how 
long calls are being talked on, who is doing what, where the 
documentation is. And all of that is getting worked on right 
now as we speak.
    We have also targeted staffing to come in during the peak 
hours--I think one of the congressmen said that--so that now 
they are coming in and staggering hours so that we have staff 
on duty. Right now, our service level is about 90 percent of 
the calls are being answered.
    Ms. Walorski. So those people--well, I guess, the answering 
system that was in use when the IG came in and looked at that, 
was that service not adequate to be able to pull all the 
information from what time the veteran called, what number they 
called from? Were those kind of--was it possible to go in and 
retrace and try to find some of these folks? Or are they just--
is that information just gone----
    Ms. Pape. No you could--you could----
    Ms. Walorski [continuing]. And the new system has it?
    Ms. Pape. Right. You could get that information. But it was 
an answering machine, so some of it was inaudible, right, and 
it was not automated. So somebody literally had to go in and 
track that. Now, with an automated system, that information 
will be at our fingertips. And some of that is at our 
fingertips right now that we are now tracking.
    Ms. Walorski. So what did you find out--when you went in to 
kind of go in and implement the IG's findings, what did you 
find out those employees were doing when the Inspector General 
said there was lapses of up to 4 hours where they weren't there 
but they were obviously being paid? What were they doing? Did 
you find out?
    Ms. Pape. I know that some of the things the employees were 
doing were training. They were on training. They were on leave. 
They were on--they were looking, doing documentation and----
    Ms. Walorski. For 40,000 phone calls? How long of a period 
of time does it take to get 40,000 phone calls in there? I 
mean, will we--we will never find these people. But, you know, 
that is--it is interesting to me, it is $3.2 million in a 
department that loses 40,000 phone calls, two-thirds of that 
money is in the system itself.
    So were employees fired? Did somebody talk to them about, 
you know, are there things on the--are these people all still 
there, and these are all the people that we are going forward 
with?
    Ms. Pape. So management is looking at how to address issues 
in performance and will be addressing that. I don't know if all 
the employees are still there. I do not think anyone has been 
fired, but we can get back to you on that. I can----
    Ms. Walorski. And then whoever is in charge of that 
department, when that IG report came out and was basically 
proof to the VA that there was a huge issue going on in that 
call center and 40,000 call opportunities were missed, what 
happened to the person in charge of that department?
    Ms. Pape. So leadership, again, is reviewing and assessing 
the performance. And if there is wrongdoing found, they will be 
taking care of that.
    Ms. Walorski. They will be fired?
    Ms. Pape. I won't say they will be fired. There are many 
ways; counseling, suspension, reprimands. And, of course, if 
there is something egregious, there could be----
    Ms. Walorski. I just think it is a huge impediment, Mr. 
Chairman, that--because we all want homelessness ended by 2015, 
right? But we want to make sure that the things get corrected 
in the VA because, I think, the American people have loudly 
said, That is enough and that has to stop. So I appreciate your 
interest in looking at it as well.
    Ms. Pape. Thank you.
    Ms. Walorski. Thank you, Mr. Chairman.
    Mr. Lamborn. Chairman Patrick.
    Ms. Kirkpatrick. Kirkpatrick. That is all right.
    Mr. Lamborn. Kirkpatrick.
    Ms. Kirkpatrick. It happens all the time.
    Mr. Lamborn. I apologize.
    Ms. Kirkpatrick. I want to thank the panel for your--and 
the previous panel for your hard work toward the goal of ending 
homelessness for our veterans.
    Ranking Member Michaud, I want to thank you and Chairman 
Miller for your leadership on the committee. Chairman Lamborn, 
I want to thank you and all my colleagues and the committee 
staff for your hard work. This has been one of the most 
productive committees in the 113th Congress, and thank you for 
that.
    For my final remarks in the 113 Congress on this committee, 
I want to read an email I got this morning. It is from a 
gentleman, William Putnam, who is the former trustee of Lowell 
Observatory in Flagstaff who has just now moved to New 
Hampshire. So if the committee will bear with me. He says, 
``Ann, I just had a wonderful experience at the VA Hospital in 
Manchester near here. Some 5 or 6 years ago, I gave up on the 
VA after it became clear to me that all the people wanted was 
to take more chest X rays of me. I figured I must glow in the 
dark already and that piece of iron hasn't shifted its position 
inside me since the day it got there in the first place nearly 
70 years ago.
    ``However, I will give them another chance, thought I. So I 
made an appointment and got there in the rain--ugh--at 10 a.m. 
But hardly had I found a place to park my car than some guy 
with a courtesy van showed up to offer me a ride some 250 yards 
to the main entrance. He was right there again when I wanted to 
go back. I found my way inside, and some other nice guy 
directed me down a long hall and around a few corners to a 
waiting room where I showed my paperwork to another polite guy 
behind a computer. He poked away at his machine. And in a 
matter of less than a minute, a little man appeared in a nearby 
doorway and called my name. He introduced himself and said, 
'Follow me down to our office area. I think you will find the 
weather is better there.' In fact, it wasn't raining at his end 
of the building. And it turned out he was the head technician 
for primary care pack team 2 of which Dr. Carter Hale is the 
leader.
    Dr. Hale was ready for me and did a few more of the usual 
high-level medical inquiries. He was a nice guy, friendly, 
knowledgeable, and radiated a sincere desire to be helpful to 
an old vet with all the miseries of a tired and lonesome man.''
    Mr. Putnam just recently lost his wife.
    ``After his examination, Dr. Hale took me to a nurse's 
cubicle where he left me to go write up his analysis. And the 
lady shot me full of flu vaccine, then pointed me down the hall 
to where the real blood thirsty ones were. They were really 
nice about it, too, and finally, it has been nearly two hours 
so far, told me I could go home. The pharmacy people would be 
in touch with me soon.
    ``I had barely gotten back home when--a 20-minute drive--
when my cell phone rang. I now have a date with the pharmacy 
people for next Tuesday. You know, Anne, I misspent much of my 
youth here is Kyle, Hampshire. It is kind of nice to feel home 
again. But, mostly, I thought you might enjoy hearing a nice 
thing said about the Veterans Administration.''
    I had his permission to read this. And I want to 
congratulate Ms. Kuster. She's getting a great constituent. So 
thank you very much. I yield back.
    Mr. Lamborn. Thank you. And thank you, Ms. Kirkpatrick.
    That leads to Representative Kuster.
    Ms. Kuster. Well, after that, I would take the risk, but 
thank you very much. And I think it is appropriate.
    And I, too, want to commend our chair, Mr. Miller, and Mr. 
Michaud, and just what an extraordinary experience this has 
been for me as a new member.
    Both my husband and I have experienced this incredible 
pride and honor. My father was in World War II. He was a pilot, 
flew 63 missions, and was shot down on Christmas Eve and spent 
6 months in a POW camp. And my father-in-law was landing on the 
beaches of Normandy when my father was flying overhead. They 
were both in the Battle of the Bulge. And so this has just been 
an extraordinary experience for me as a member of Congress to 
be able to serve on this committee.
    So I really don't have any additional questions. I want to 
thank you for the work that you are doing. I certainly want to 
thank my colleague, Ms. Kirkpatrick, for that beautiful letter.
    And I just want to say that of the people that are out 
there working for the Veterans Administration, for HUD, for all 
the private organizations, all of our VSOs to meet people from 
organizations like Soldier On, I just want our veterans to know 
how much we do care, how much we do want to solve--this is the 
most complex issue, poverty, the issues of the brain having 
dealt with mental health in our family, issues of employment, 
PTSD, MST, the list goes on and on. And I just want our 
veterans to know that we have the most bipartisan committee in 
the 113th Congress and, I hope, in the next Congress as well 
and that there are people here in Washington, DC who care a 
great deal.
    So I thank you for the work that you do. I thank my 
colleagues, and I just want to thank the chair and the vice 
chair for the opportunity to work with you this year. Thank you 
so much.
    Mr. Lamborn. Thank you.
    Representative O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    First of all, thank you to each of you for what you do and 
for your answers to the questions so far.
    For Ms. Pape, I wanted to follow-up on a question raised by 
my colleague, Ms. Walorski, on these 40,000 missed calls. When 
did you become aware of the OIG report and the number of calls 
that were missed? Roughly.
    Ms. Pape. While the OIG was finishing up the investigation 
is when I started to become aware that there was 40,000 calls 
missed, so the IG and the VA worked together as they start to 
close out.
    Mr. O'Rourke. How long ago was that roughly?
    Ms. Pape. Several months ago, April, May.
    Mr. O'Rourke. I take you at your word that you are pursuing 
this and you are going to make sure that we hold those who are 
responsible accountable and fix the problem?
    Ms. Pape. Yes.
    Mr. O'Rourke. I will say an issue that has consumed this 
committee has been accountability and the culture at the VA and 
hearing and knowing there is a little bit more urgency behind 
these issues and that it doesn't take us months to figure out 
who is responsible and to hold them accountable but we do it as 
soon as we have the appropriate information, I think would go a 
long way to restoring much needed faith and trust in the VA, 
especially around appropriations time and, obviously, for those 
whom we serve here, the veterans who depend on these services, 
so just that would be a message to you in terms of your 
response on that issue. And I hope you can update this 
committee sooner than later that you have dealt with this issue 
and held those accountable who were responsible for the failure 
here.
    Ms. Pape. Absolutely. Just yesterday having conversations 
with our leadership about ensuring that this issue gets 
resolved quickly. None of us want veterans not getting service 
they need. It is just unacceptable, and we are on it. Thank 
you.
    Mr. O'Rourke. The latest point-in-time report shows around 
56 homeless veterans in El Paso. I have a couple questions 
around that. One, does that include veterans who are currently 
in homeless shelters?
    Ms. Ho. I can take that if you would like. Thank you, 
Representative, for that. The point-in-time count, communities 
go out and they count people who are getting homelessness 
assistance, either in a shelter or a transitional housing 
program, and people who are outside, so those are the groups 
that are counted in the point-in-time count.
    Mr. O'Rourke. So what I will want to do is offline, after 
this hearing, see how I can bridge the divide between what the 
El Paso Homeless Coalition counts and El Paso for Homeless 
Veterans, which is 154 who are sheltered with about 60 
unsheltered, and so I thought the unsheltered numbers, 56 and 
60, were close enough that that is who you are counting in the 
point-in-time. I just want to make sure I fully understand 
that.
    The kinds of questions I was asking Ms. Crone in terms of 
what should we be measuring--and I realize it is not all about 
data, but I do want to be able to measure those things that 
will give us an indication of where we have successes and where 
we have problems, where we need to spend our time and our 
resources.
    And then, related to that, prior to my being sworn in in 
November of 2012, we learned that a very large shelter in El 
Paso was approached by the VA to provide homeless services 
exclusively to veterans and to families of veterans who are 
homeless, and many, many months and maybe even years went by as 
this shelter tried to meet all of the recommendations and 
mandates I guess from the VA, and they spent hundreds of 
thousands of Dollars in doing this, and at the end of the day, 
the deal fell through. And, essentially, if I could sum it up, 
the VA said your facility does not meet our criteria, despite 
the fact that it had passed every single regulation and 
inspection in El Paso, from the Fire Department, the Health 
Department, every city code inspector, et cetera. The capacity 
for that shelter is exactly the number of those who are 
unsheltered today in El Paso. I realize this is somewhat of a 
parochial issue but it is very, very important to me and the 
people I serve.
    I would love your commitment to sit down with us and go 
through what happened here and how it is we are going to ensure 
that we shelter and provide services for those who are 
unsheltered in El Paso right now. In other words, if there was 
a commitment and funds associated with that, can we get them 
reintroduced in the community in another way. I am running out 
of time, so I would love just to have your commitment to sit 
down with me and go over that.
    Ms. Pape. Committed. I am there. You are so close to ending 
homelessness, we can get there. I am happy to sit with you.
    Mr. O'Rourke. Thank you.
    Ms. Ho. I just want to mention that the point-in-time count 
happens in the third week of January, so an opportunity to 
participate in that would also I think mobilize the community 
on that.
    Mr. O'Rourke. Wonderful.
    Ms. Ho. And that you had 56 unsheltered veterans and 67 
sheltered veterans in the January 14 count.
    Mr. O'Rourke. Okay. Thank you. I appreciate that.
    I yield back.
    Mr. Lamborn. Thank you.
    Representative Walz.
    Mr. Walz. Thank you.
    And thank you all for your commitment on this. It is 
evidence of your passion, your expertise, and you care deeply. 
And I, for one, am grateful for that. And I said I think what 
you understand and the folks who have been involved in that 
issue, the deep implications of that holistic approach in 
getting that home, because for what it means, it is the 
restoring the dignity and to be in many cases restoring the 
life. And in Mankato, the homes I was talking about in 
Minnesota, Radichel Townhomes there, all the good things, and 
they had wonderful things to say about everything, but I asked 
a veteran there, I said, Bill, what is the best part about 
this. And he said, It is a place where my grand kids come that 
feels normal. It is that reintegration into the community. It 
is that grandpa's got a home. It is a place I can go. It is 
nothing out of the ordinary. It is grandkids visit their 
grandparent every day, and he is a grandparent.
    And so I think your commitment on it is right. I think we 
are all there. I think there are different approaches to it. 
And I think when we have setbacks, the commitment to getting 
them right.
    I just had a couple of questions. I want to be clear with 
all of you, Mr. Kelly especially on this. When I brought up a 
few years ago this issue of alignment, it wasn't out of 
criticism of any of your agencies. I think the things you do, 
you do incredibly well. It was more of a concern at that point 
in time especially the disparate nature of all of the services 
that were available. There were many well-intended programs, 
both governmental and private sector and public-private 
partnerships, but how to deliver them. So my question is, is 
the areas of expertise that HUD or DoL, are those so specific 
to what you do that it is most effective and efficient to 
reside there as opposed to bringing the experts over to VA as 
one stop? I know that is a broad, and it is not meant to be a 
loaded question. I know it can be. I just want to get my mind 
wrapped around it if that is the right way to go as we see 
because we are at a transformation point in VA, and this is the 
time to talk about these things.
    Mr. Kelly. Thank you for the question, and let me respond 
to it this way. The expertise in the whole employment arena, 
veterans or nonveterans, is at the Department of Labor. What is 
most important is collaboration amongst our fellow agencies. 
DoL brings to the table the employment and reemployment piece 
of it. Now, that is only one part. You certainly have to have 
the housing and the healthcare issues. So it was critical, it 
seems to me, that the U.S. Interagency Council on Homelessness, 
was created to make sure all of these things are addressed. I 
would offer, from our point of view, we have dealt with that 
very same thing at DoL with regards to employment and training. 
I just got back from a meeting with the Agricultural folks to 
look at veterans in agriculture training. Probably USDA is the 
best lead for that on the various programs they have. I would 
offer that same analogy here. It is just most important that we 
do TOUCH base with each other, and all come to the table with 
our expertise.
    Mr. Walz. And I am grateful for that. How do you respond, 
though, and I am sure this not a new one, and you heard our 
first panelists, and they are committed just like you are, and 
they are understanding where you are at, but they expressed 
that and folks express it to me that it is again navigating 
that disparate bureaucracy to try to get there. I say that not 
as a pejorative. It is just the nature of things. Private 
businesses have bureaucracies. Some of them are good, and some 
of them are bad, so it is not an either/or. How do you respond 
to them on that one when you heard some of the comments from 
the first panelists?
    Ms. Ho. Congressman Walz, thank you for your leadership on 
this and for the opportunity to speak to this. I ran a 
nonprofit in Minnesota for 11 years that had different Federal 
grants, and so sitting in the Federal Government it is a very 
different view. HUD knows housing, and as Lisa tells me all the 
time, the VA is a healthcare system. They are just very 
different programs. I think the magic of the work that we have 
done together is by being able to work together not only 
federally but locally to make those systems sync up so that we 
are drawing the expertise of the public housing agencies and 
the homeless assistance providers and the healthcare providers 
at the VA. You know, could it be done in another way? Perhaps. 
But the reason that we are getting close to ending veterans 
homelessness in communities around the country is because they 
just get the right people around the table focused on the same 
goal. And so ----
    Mr. Walz. And I agree with you. Is the next piece we are 
getting is that integration with the folks who were on the 
first panel of enhancing that? There is always going to be a 
certain amount of frustration. Again, I get it, if we just 
handed out the money and told people to do it, this room would 
be packed with cameras about where did the money go then. And 
that is our responsibility of trying to do it. Some of it would 
go to good places; some of it wouldn't. I understand there is 
that piece of it. My question is bringing more of them in to 
hear, and I know you do, of seeing the first panel as partners 
and equal partners to what you are doing and their expertise to 
bring it. Mr. O'Toole, my time is almost up if you want to 
finish with it.
    Mr. O'Toole. Real quickly. We are in a transformative 
process within the VA of going out into communities and 
partnering with communities, whether it is in our integrated 
primary care teams, all of which are doing outreach, our 
assertive community treatment teams doing mental healthcare in 
the community, as well as bringing these community agencies 
into the VA. It is about de-siloing, the care. I think your 
observation is spot on, and I think we are making progress. We 
aren't where we need to be yet, but we are making progress in 
getting there.
    Mr. Walz. Thank you. I yield back.
    Mr. Lamborn. Thank you, and thank you all for being here, 
for your work for veterans, for your testimony today. There 
will be questions for the record, and I would ask that you--oh, 
I am sorry. We have another member of the committee that just 
came in the door.
    Ms. Brown, you are recognized for 5 minutes.
    Ms. Brown. Thank you, and I was watching you on television. 
You do this very well. Thank you. First of all, I want to put 
on the record that I am grateful for the work that Secretary 
Shinseki did as far as cutting down the homelessness problem 
that we have experienced in this country for a number of years. 
And so when history is written, he certainly should get the 
credit for cutting it down to one-third as we celebrate. And I 
am also grateful that we just got over $600,000 in my area for 
the HUD voucher program. One of the questions that I raised 
earlier is there doesn't seem to be adequate beds for female 
veterans, in particular those with families. Can we address 
that, please?
    Ms. Ho. I would be happy to take that question, 
Congresswoman. Thank you for that, and thanks for the 
opportunity to talk about the way that we are targeting towards 
female veterans. First of all, we track the number of female 
veterans that are appearing in our shelter system, and we track 
the number of female veterans that get access to the HUD-VASH 
program. And so what we know is that HUD-VASH is serving female 
veterans and their children at a higher rate, and we are doing 
some specific targeting around that, understanding that a mom 
with kids is in a uniquely vulnerable situation. So one of the 
great uses of HUD-VASH is really around targeting around moms 
and kids.
    To the question of how much housing is needed, this really 
is an area where the work that we are doing with specific 
communities is very focused because historically, if you took a 
look at the way that homelessness programs worked, they worked 
largely in isolation. And one of the big transformations that 
is going on right now is around this concept of coordinated 
assessment, kind of a one-stop shop, with kind of a triage 
referral. But also helping communities recognize every single 
resource that they have and then looking at the numbers and 
figuring out what the gaps are and strategizing around how to 
fill those gaps in a very deliberate way.
    It sounds like just good strategic planning, but 
historically, that is not necessarily the way that communities 
operated. Homeless programs operated in isolation. Nobody had a 
good count of all of the resources. There wasn't a good 
understanding of the difference between the number of people 
experiencing homelessness on a single night versus people who 
come through the system over time. So we are getting smarter in 
all of those areas, and that is helping communities do these 
gaps analyses to figure how much of what do we need, and 
equally importantly, are there things that we used to need when 
we were doing it the old way that we are not going to need as 
much of any more.
    Ms. Brown. Thank you.
    I had read in the paper that they were cutting out meals 
because the city was cutting back on programs of the State, so 
I called in the Department of Agriculture. And they came in, 
and so the groups came together and did a grant. And they are 
working together. So it is not just HUD. It is all of the 
stakeholders working together to make sure that we do 
everything we need to do to fill those gaps in.
    Ms. Ho. I had the pleasure of working at the U.S. 
Interagency Council on Homelessness before I came to HUD, and 
that is 19 Federal agencies working together on a single 
Federal strategy, and that is the first time that this level of 
collaboration not only with the partners that I have at the 
table here today, but the other agencies that are part of it. 
Everybody shows up, and everybody is trying to figure out what 
is our piece of getting this job done.
    Ms. Brown. Thank you very much, and thank you for your 
service.
    And, Mr. Chairman, I yield back the balance of my time.
    Mr. Lamborn. Thank you, and I will, once again, thank you 
all for being here, for your work to help veterans.
    There will be questions for the record, and I would ask 
that you respond to those in writing. The second panel is now 
excused. I ask unanimous consent that all members have five 
legislative days to revise and extend their remarks and include 
extraneous material. I would also like to thank once again all 
of our witnesses on both panels and audience members for 
joining us this morning. Merry Christmas and Happy New Year, 
and this meeting is now adjourned.
    [Whereupon, at 1:52 p.m., the committee was adjourned.]

                                 <F-dash>

                                APPENDIX

             Prepared Statement of the Chairman Jeff Miller

    Welcome to today's Full Committee oversight hearing--the last of 
the 113th Congress--``Evaluating Federal and Community Efforts to 
Eliminate Veteran Homelessness.''
    At this time of year perhaps more than any other, the thought of 
anyone--particularly anyone who served our nation in uniform--without a 
home or a safe place to sleep is simply heartbreaking.
    Unfortunately, homelessness--or the constant threat of it--has 
become a way of life for far too many of our nation's veterans.
    In 2009, the Department of Veterans Affairs (VA) initiated a five-
year plan to eliminate veteran homelessness and, as that deadline fast 
approaches, I am pleased to report that VA has succeeded in reducing 
veteran homelessness by approximately thirty-three percent.
    Yet, as long as a single veteran struggles with housing instability 
or homelessness, our work remains.
    Troubling, a VA Inspector General (IG) report issued just last week 
found that VA's National Call Center for Homeless Veterans missed well 
over forty-thousand opportunities to link homeless veteran callers to 
VA medical facilities and ensure they received needed services.
    Some of these missed opportunities resulted from the unavailability 
of Call Center staff during peak business hours when veteran callers 
were transferred to answering machines instead of Call Center 
employees.
    This is unacceptable for any government program but particularly 
for one that serves a population as vulnerable as this. A population 
that for some, the ability to merely make a phone call is logistically 
challenging.
    I look forward to hearing today how VA is correcting the serious 
deficiencies that the IG found and holding those at fault accountable 
for their management and oversight failures.
    Unfortunately, the Call Center is just one concern I have with VA's 
many homeless programs.
    Based on information from VA, the Department has roughly twenty 
different programs designed to get homeless veterans off the streets 
and provide them with housing, healthcare, and employment assistance.
    The Departments of Housing and Urban Development and Labor also 
have programs aimed at achieving these same goals. I am encouraged to 
see the level of cooperation between these government agencies.
    I understand that homeless veterans are a varied and complex group 
and one program alone cannot effectively treat the unique needs of them 
all.
    However, the plethora of different programs that are in place today 
beg the question of whether significant overlap exists that both wastes 
taxpayer Dollars and limits the effectiveness of any single program's 
ability to effectively care for veterans in need.
    I also have concerns about the increasingly insular focus the 
Department is placing on ``permanent'' housing.
    Except for the very few veterans for whom housing instability may 
be a lifelong concern due to underlying health conditions, the foremost 
goal of every program serving homeless veterans should be providing a 
bridge to an independent, purpose-filled life--not a permanent, 
government-sponsored home.
    Over the last several years, the American taxpayer has devoted 
record amounts of their hard-earned Dollars to eliminating veteran 
homelessness, with funding for targeted homeless programs increasing by 
almost three-hundred percent and funding for healthcare for homeless 
veterans increasing by more than eighty percent since fiscal year 2009.
    But despite this considerable investment, veteran homeless will 
never be completely eliminated so long as veterans struggle with 
underlying health conditions and economic crises.
    Quickly and effectively diagnosing and treating those underlying 
health conditions and providing veterans who are able with job training 
and placement services is critical to empowering homeless veterans to 
successfully reintegrate into stable community environments.
    To truly honor and respect the service of a homeless veteran is to 
provide him or her with a pathway to a life of dignity and self-
sufficiency, not just four walls and roof.

                                 <F-dash>

        Prepared Statement of Ranking Member Michael H. Michaud

    Thank you Mr. Chairman.
    The VA's goal of ending veteran homelessness by the end of 2015 is 
an ambitious goal. Remarkable progress has been made by VA to meet this 
challenge, but there is much still that remains to be done.
    As we all recognize, VA cannot meet this goal alone--it will take 
the concerted action of the Federal government and the assistance of 
organizations and individuals all across the country.
    I look forward to the hearing today so that we can evaluate the 
effectiveness of this effort, and applaud the real progress that has 
been made.
    According to reports, homelessness among veterans has declined by 
33 percent, to roughly 50,000, since 2010.
    This is an accomplishment we can all take pride in, but there are 
still homeless veterans, and it is simply unacceptable that any of our 
veterans do not have a roof over their head.
    I am also concerned that we are not taking adequate steps to 
address special populations, such as homeless women veterans and those 
that need serious and sustained assistance.
    Today's hearing provides us with the opportunity to continue this 
discussion. It provides us with the opportunity to discuss how we 
define the goal of ending veteran homelessness, the resources that need 
to be committed, and the work that remains to be done in the year 
ahead.
    I am excited about today's hearing, but it is also bittersweet for 
me.
    This marks my last hearing as a Member of this Committee, and this 
Congress.
    Although I am looking forward to the opportunities and challenges 
that lay before me in the years ahead, I will miss this Committee and 
the work that it does.
    To the incoming Ranking Member, Ms. Brown, in your 22 years on this 
Committee, you have been a strong voice for veterans and the VA. 
Congratulations, and I hope you enjoy being Ranking Member as much as I 
did.
    To my fellow Democrats on the Committee, I cannot thank you enough 
for the work you have done. You have made it very easy for me to serve 
as Ranking Member. I appreciate the energy and the new ideas you have 
brought to this Committee. I hope you will all continue our efforts 
here in the next Congress and in the years ahead.
    To my friends on the other side, I applaud you and thank you, too, 
for your efforts. I cherish the friendships that I have with many of 
you. This Committee is truly a special place. Although there are times 
when we share different perspectives on how best to serve our veterans, 
we often worked together, without regard to party and without the usual 
rancor that many believe is elemental to the legislative process.
    I hope the American people look to this Committee as a model, and 
insist that their representatives do what we do so easily here--work 
together to get the job done.
    I wish to thank our staff, on both sides of the aisle. They work 
tirelessly, often with little credit, to make this Committee function 
and to do their best for veterans. I want to thank Nancy and my staff 
on this side of the aisle for your tireless effort. I want to thank 
John Towers and the Republican majority staff as well. The committee 
staff has done a phenomenal job over the last couple of years. I really 
appreciate the work that you have done, especially the administrative 
staff who do the day-to-day tasks that enable everything around here to 
function, and make us look good.
    I wish to thank the many employees at the VA, and their efforts to 
care for and serve veterans. Too often media headlines level broad 
accusations against all VA employees, and not just the few who have 
performance issues. There are good news stories, and there are good VA 
employees.
    I wish to thank the VSOs and veterans who work with us to make real 
the promises that this nation has made to all of our veterans. You are 
partners in our efforts and essential to our work. Keep up the good 
fight!
    Finally, Mr. Chairman, I really do appreciate our friendship over 
the years. And as you mentioned, we meet a lot of individuals here in 
Congress. A lot we consider friends. There are some we consider friends 
in a more special way. I consider you a very good friend. We have 
switched roles over our time as Members of Congress; me being chair, 
you being ranking member and vis-a-vis. And I really appreciate your 
openness, your willingness to listen to me as a minority member and as 
a ranking member. I want to thank you very much.
    I know you have talked on the House floor, and in this committee 
about coming to the State of Maine, about how you want to be able to 
shoot a moose. Hopefully, you will not forget that dream. In the 
meantime, I have something I would like to present to you, Mr. 
Chairman.
    In Maine, in the woods, moose lose their antlers. I have a 
constituent that goes through the woods to collect discarded moose 
antlers to carve. This is the half of a moose antler carved with an 
eagle's head.
    Mr. Chairman, I would like to present it to you in your drive to 
actually get a full moose in the State of Maine. And I would like to 
present this to you as a parting gift for your friendship and your 
loyalty. But also, for the work you have done for veterans over a 
number of years, putting aside partisan politics to do what is right 
for our veterans. So here is a freedom antler with an eagle from the 
State of Maine. Thank you, Mr. Chairman.
    Thank you, and I yield back the balance of my time.

  Prepared Statement of Baylee Crone, National Coalition for Homeless 
                                Veterans

    Chairman Jeff Miller, Ranking Member Michael Michaud, and 
distinguished members of the House Committee on Veterans' Affairs:
    Thank you for the opportunity to appear before this Committee 
today. My name is Baylee Crone and I am the Executive Director of the 
National Coalition for Homeless Veterans. On behalf of the more than 
2,100 community and faith-based organizations NCHV represents, I would 
like to thank all of you for your steadfast commitment to serving our 
nation's most vulnerable heroes.
    This testimony will focus on our understanding of the progress made 
to end veteran homelessness in this country, particularly:

        <bullet> National progress made toward ending veteran 
        homelessness.
        <bullet> Matching services to the needs of homeless and at-risk 
        veterans.
        <bullet> Successes of permanent housing, transitional housing, 
        employment, and prevention interventions.

    Additionally, this testimony will outline the benefit of 
coordinated outreach and intake systems in rapidly directing veterans 
to the local services that meet their most immediate needs.

National Decline in Veteran Homelessness

    The national decline in veteran homelessness since 2009 is without 
precedent. The success we have seen to date, and our future success 
relies on the strengths of VA's front lines--the community providers 
and VA case managers who fight the daily battle to do more, better and 
faster. The momentum is on the side of rapid change, and we are closer 
than ever to achieving our mission of effectively ending veteran 
homelessness. However, ending veteran homelessness is not a moment; it 
is a moving target.
    To make progress toward our mission, we must see drops in the Point 
in Time (PIT) count, but that is not the only aspect of change we must 
see. We must see immediate engagement of services when a need arises, 
rapid response to those on the streets, and a continuation of 
successful permanent housing placement. We must empower community 
agencies to meet specific needs of individual veterans using targeted 
services through data-driven programs.
    As the number of veterans on the street and in temporary shelter 
goes down, we will need to be more, not less, diligent in ensuring that 
we provide a hand up to those who remain on the street and find 
themselves at high risk. We will end veteran homelessness, but reaching 
that benchmark happens when the systems in place are ready and able to 
immediately meet a veteran's needs should he fall into homelessness or 
be at high risk. As we make progress, resources will need to be 
redeployed, not withdrawn.
    Across the country, our community organizations and VA partners are 
stepping in with a safety net and a hand up to self sufficiency and 
independence. We are fostering empowerment, we are halting cycles of 
abuse, and we are educating and protecting. These activities may not 
show up in a point in time count, but they are, and will continue to 
be, the actions protecting against homelessness for many veterans.

National Declines: The Point in Time Count

    Looking at one measure, the 2014 PIT count, tells an important part 
of this story: on a single night in January, 49,933 veterans were 
homeless. This 33 percent decline since 2009 is more than a statistic--
it represents a real, measurable, downward trend in homelessness among 
veterans. Veteran homelessness dropped 10 percent in one year, 
representing the steepest decline since veteran homelessness dropped 12 
percent from 2010 to 2011. Homelessness among unsheltered veterans 
dropped 14 percent in one year, representing a greater than 40 percent 
decline since 2009. These significant drops happened as community 
organizations and VA Medical Centers (VAMCs) have improved outreach and 
targeted services for those with the most significant barriers. The 
challenges remain daunting, but they are surmountable with close 
coordination of complementary programs on the local level.
    While the PIT count presents a useful benchmark for tracking 
progress, it only shows part of the picture of who experiences 
homelessness throughout the year and who receives services from VA and 
other community programs. The PIT count is a snapshot; other data build 
out a more nuanced scene of the challenges we face and the road ahead.

National Declines: Beyond the Point in Time Count

    In FY 2014, 80 percent of unsheltered veterans moved out of 
unsheltered status within three days. As VA stated in their annual 
report, ``this metric pushes the system to move literally homeless 
veterans off the streets and into safe and stable temporary housing.'' 
In that same period, 50,730 veterans achieved permanent housing through 
the Supportive Services for Veteran Families (SSVF) program, far 
outpacing the VA's goal of 40,000. These data points begin to show us 
the full picture: veterans are engaging VA when they need help, are 
moving rapidly off the streets, and are successfully moving into 
permanent housing.
    The VA has also innovated to improve efforts on the ground. The VHA 
Programs Office updated its Homeless Gaps Analysis to include quarterly 
actual data and VAMC operational strategies. They also launched the 25 
Cities campaign to promote community-based solutions to ending veteran 
homelessness in high-need areas. The picture gains more clarity: 
results are being meticulously and consistently tracked to improve 
targeting to meet specific local and individual needs. The system has 
improved, and it is working.
    Looking at the PIT count, service usage trends, and changes in data 
processing helps us to track progress, but still, the full picture of 
change is not clear with this information alone. The stories of 
homelessness are pervasive in our work: an elderly veteran on a fixed 
income loses his roof in a bad storm but cannot afford to fix it; a 
mother with debilitating post-deployment headaches is unable to work 
and must choose between asking for help and keeping her family 
together; a recently transitioned young veteran living in his car 
struggles to keep up in school to retain his GI Bill.

Matching Needs to Services

    At NCHV, we demand that individual needs match specific services. 
We do not have a ``homeless veteran population''--we have individual 
veterans who are homeless and who have specific and unique needs 
profiles to be addressed through a coordinated system of care. Wherever 
chronic, episodic and recent, or at-risk homelessness exists, the VA 
and its community partners must be ready and armed.

Needs of Chronically Homeless Veterans

    We see veterans who are chronically homeless. Those individuals 
make up the majority of the unsheltered point in time count numbers, 
and are those targeted through the HUD-VASH program. As of September 
30, 2014, 91 percent of vouchers allocated to local communities for 
HUD-VASH led to permanent housing. Of those admitted into the HUD-VASH 
program, 71% met the definition for chronically homeless. By exceeding 
its target of 65%, VA showed a commitment to ending homelessness for 
those most vulnerable veterans in need of the intensive services 
offered by HUD-VASH.
    These data points are built on a foundation of behind-the-scenes 
coordination. Progress has required collaboration between the local 
Public Housing Authorities, local landlords, and VA personnel and 
grantees. Through this collaboration, they have identified high-need 
homeless veterans, streamlined verification, inspection, and approval 
processes, and rapidly placed these veterans into available housing 
units.

Needs of Episodically and Recently Homeless Veterans

    We see veterans who are episodically or recently homeless. Those 
individuals make up a large portion of the sheltered homeless count, a 
smaller portion of the unsheltered count, and a significant portion of 
those needing services who are outside of formal counting systems. They 
are couch surfing and in and out of transitional housing, shelters, and 
treatment programs.
    These veterans connect to services through an extensive local 
outreach network. In communities across the country, homeless veteran 
service providers partner with the VAMC, community clinics, and 
Continuum of Care partners to ensure that homeless veterans seeking 
care encounter a ``no wrong door'' approach to outreach: no matter 
where the veteran accesses services, he is assessed and referred to the 
local agencies that can best meet his specific needs.
    If the veteran needs a place to sleep that night and services while 
a housing plan is developed, intake workers can refer him to 
residential treatment programs through VA, like Grant and Per Diem 
(GPD). As of the end of FY2014, VA had reached its annual goal for 
discharging veterans into permanent housing from GPD. If the 
coordinated intake process identifies the need for employment 
assistance, the veteran can be referred to a local Homeless Veteran 
Reintegration Program (HVRP). This program placed over 10,000 veterans 
into gainful employment in FY2013, with a cost per placement under 
$3,000 per veteran.
    Again, improved results rest on the shoulders of behind the scene 
changes. GPD programs across the country are lowering barriers to entry 
to make services more accessible. They develop service menus based on 
each individual veteran's goals so that the transition from 
homelessness to stable housing is a rapid and sustainable one. HVRP 
grantees have integrated innovative employment placement strategies 
into their programs, continuing to successfully place homeless veterans 
in competitive employment even in a challenged economy.

Needs of At-Risk Veterans

    We also see those who are at risk of homelessness. These veterans 
may be one lost paycheck, one expensive utility bill, one broken down 
car away from losing their housing stability. They are often not 
counted in the Point in Time count, but they are here at our doorsteps 
and are often engaged in services through the Supportive Services for 
Veteran Families Program (SSVF). In FY 2013 alone, over 44,000 veterans 
and veteran family members were assisted through homelessness 
prevention SSVF resources. The data shows that these individuals 
obtained and maintained housing: among veterans receiving SSVF 
prevention services and exited to permanent housing destinations, 90 
percent did not use VA homeless services within a year after their exit 
from the SSVF program.

Magnifying Impact through Coordination of Services

    We can end chronic homelessness; we are already doing it through 
HUD-VASH and Housing First. We can functionally end episodic and recent 
homelessness; rapid rehousing infrastructure, transitional housing, and 
income interventions are joined together to make this happen. We can 
get ahead of homelessness through prevention; SSVF serves more veterans 
and their families more cost effectively every single year. The full 
picture is complicated, but it is lit up with hope.
    Ending veteran homelessness starts with the veteran, and people are 
complicated. Some individuals with complicated needs profiles will be 
served by several programs. This does not mean that services are being 
duplicated, but rather that organizations and programs work together to 
address specific barriers to permanent housing.

Serving Chronically Homeless Veterans

    Targeting chronically homeless veterans for rapid placement 
sometimes requires utilization of other programs to fill needs when no 
other resources exist in a community; this could include SSVF for 
security deposits in competitive rental markets or GPD as bridge 
housing between living on the streets and moving into housing while a 
unit is inspected and approved.

Serving Episodically and Recently Homeless Veterans

    Serving episodically or recently homeless veterans, especially 
those who do not qualify for HUD-VASH, requires bridge housing and 
employment and income services to make affordable housing within reach. 
This could include pairing the vocational services of an HVRP case 
manager trained in labor market information and employment placement 
with the benefits and transitional housing services of a GPD program. A 
veteran may be referred to both programs, but for complementary, not 
duplicative, services. Utilizing some aspects of both programs, the 
veteran will obtain enough income to afford an apartment on his own.

Serving At-Risk Veterans

    Sustaining at-risk veterans in the housing they have requires quick 
action and creative coordination; this could include a utility bill 
paid through SSVF and the intervention of another community 
organization with a strong landlord relationship to prevent an 
eviction. Because of their longstanding reputation for service in local 
communities, this community organization is often a GPD provider.

Evolving Needs, Evolving Programs

    Needs will never disappear, but they are already evolving--and 
programs are adapting to them. SSVF has evolved based on constant 
feedback and best practices, and it is serving more vulnerable veterans 
per Dollar every year. HUD-VASH's integration of Housing First 
principles gives strong case management and consumer choice the 
driver's seat in collaborative care. HVRP's adoption of Job-Driven 
Training and connection to American Job Centers and DOL labor market 
information allows homeless veterans to receive front-line connection 
to gainful employment.
    We believe in and will defend effective deployment of targeted 
resources to fuel research-based interventions when and where they are 
needed. We must be diligent in the collection of empirically sound data 
so programs and the organizations executing these programs are 
responsive locally. They will need to continue to magnify impact by 
simultaneously addressing various barriers. Local programs are our 
force multipliers, pulling the entire community into the mission of 
ending veteran homelessness through the gravity of its importance.
    At NCHV, we do not advocate for the unqualified growth of resources 
for the sake of expanding programs. We believe a surge is still needed 
now, not because we set a goal for 2015 and want to check a box, but 
because we have the momentum now to make it happen. Building and 
sustaining those strongholds requires maintenance of infrastructure so 
homelessness is not simply paused, but truly stopped.

In Summation

    Thank you for the opportunity to present this testimony at today's 
hearing. It is a privilege to work with the House Committee on 
Veterans' Affairs to ensure that every veteran in crisis has access to 
the support services they have earned through their service to our 
country.

    Baylee Crone, Executive Director,
    National Coalition for Homeless Veterans,
    333\1/2\ Pennsylvania Avenue SE,
    Washington, DC 20003, 202-546-1969

                    NCHV Disclosure of Federal Grants
------------------------------------------------------------------------
 
------------------------------------------------------------------------
Grantor:                                    U.S. Department of Labor
Subagency:                                  Veterans Employment and
                                             Training Service
Grant/contract amount:                      $450,000
Performance period:                         February 2014 - February
                                             2015
Indirect costs limitations or CAP           20 percent
 limitations:
Grant/contract award notice provided as     No
 part of proposal:
------------------------------------------------------------------------

 Prepared Statement of Steven R. Berg, Vice President for Programs and 
              Policy National Alliance to End Homelessness

    Chairmen Miller, Ranking Members Michaud, and members of the 
Committee, on behalf of our Board of Directors, our President Nan 
Roman, and our thousands of partners across the country; thank you for 
providing the National Alliance to End Homelessness the opportunity to 
testify today. We are grateful to you for holding a hearing on veterans 
homelessness and what we are doing and can do to end it. The National 
Alliance to End Homelessness works closely with federal policymakers as 
well as with state and local government, businesses, nonprofit 
organizations and many others who believe that homelessness should not 
be tolerated in the United States.

Homelessness Among Veterans

    Our nation witnesses far too many veterans living on the streets. 
The number of homeless veterans has declined substantially in recent 
years, but is still far too high. While most veterans are well housed, 
a substantial minority are burdened with high housing costs, which 
combined with other factors can leave them at risk of homelessness. As 
a nation we have undertaken a concerted effort to solve the problem, 
which is a good thing, since without that effort there are many reasons 
to believe that the problem would become worse. Thousands of Americans 
are returning from the Middle East, with the kinds of demographic 
traits and disabilities that we know to be risk factors for 
homelessness, to an economy with unemployment that is still too high. 
Without continued hard work, there would be a grave possibility that an 
entire new generation of veterans will become stuck in homelessness.
    It is important to recognize that not all homeless veterans are the 
same. At the one extreme, some homeless veterans have severe 
disabilities, particularly related to behavioral health, and have lived 
on the streets or in shelters for long periods of time. This pattern 
has been referred to as ``chronic homelessness,'' and it costs 
taxpayers substantial money in emergency healthcare, jails, shelters 
and other emergency ``services.'' Returning these veterans to safety 
and housing often requires long-term rent subsidies, and intensive 
social services and medical care.
    While this is probably most Americans' stereotype of what a 
homeless person is like, and while there are certainly a percentage of 
homeless veterans who are like this, it is a minority. Most veterans 
and other Americans who experience homelessness do so because of 
personal economic crises. They do not have profound disabilities. Their 
lack of housing is often a serious barrier to getting their lives back 
on track; but program models knows as ``rapid re-housing'' have shown 
that if that barrier is removed through return to housing, they can 
succeed through their own devices or with short-term help to afford 
housing.
    The Alliance is enthused and hopeful in light of the work that has 
already been done and the reductions that have already occurred. The 
federal government's part in this work is being carried out pursuant to 
a commonsense plan, organized around a clear understanding of the 
problem and a commitment to solve the problem. The rest of this 
testimony will review what has happened so far, and what needs to 
happen between now and the end of 2015 to bring about the best possible 
results.

What's Been Done, What Remains to do to House All Homeless Veterans

    In 2008 the Alliance presented testimony at a hearing held jointly 
by the Senate Appropriations subcommittees with jurisdiction over VA 
and over HUD. The topic was what to do about homelessness among 
veterans. At that point we talked about how we as a country needed to 
take four big steps in order to end homelessness for veterans. I am 
happy to say today that VA, HUD and Congress have taken three of those 
steps, and are in the middle of step four. We could still stumble, we 
could still not succeed; but if we finish what's been started in the 
right way, we can see the number of homeless veterans fall 
substantially, to the point where communities that use the help 
available to them and follow through can end veterans homelessness by 
the end of 2015.
    Step one: ``command and control'' infrastructure. Step one was to 
put in place a national plan and monitoring system that would be based 
on real data to determine what is working, what isn't, and how much 
progress is taking place. That piece is in place. The creation of the 
National Center on Homelessness Among Veterans has been extremely 
important in this regard. The Center, a joint project of VA and the 
University of Pennsylvania, provides a context for leading national 
experts on homelessness to use the rich data that is available on the 
use of VA programs, combined with other research and data on 
homelessness. The close cooperation of the National Center with the 
program offices within the Veterans Health Administration, and with 
staff in the Secretary's office, provides a ``command and control'' 
function that is essential.
    Step two: a full range of interventions. Step two was to expand the 
range of program models to make effective practices available for the 
full range of veterans who are homeless. This, too, has been 
accomplished. At the time, in 2008, most housing for homeless veterans 
was being provided through the Homeless Grants and Per Diem program, a 
two-year transitional housing model. This is a model that works very 
well for certain people, but we believe anyone running such a program 
would agree that it is not for everyone. To end homelessness requires a 
range of programs so that everyone can get what he or she needs. As 
noted above, some homeless veterans, particularly those experiencing 
chronic homelessness, have permanent disabilities combined with other 
issues that make a transitional program unrealistic for them. The HUD-
VASH program was put in place to address these needs. On the other 
hand, people who become homeless due to a short-term economic emergency 
can escape homelessness with short-term help to deal with that crisis. 
The ``rapid re-housing'' model, implemented at VA through the 
Supportive Services for Veteran Families program, has proven extremely 
effective at ending homeless for this group, at substantially less cost 
than either permanent or transitional supportive housing programs.
    It is important to note that there are eligibility issues. Not 
everyone who served on active duty in the military is eligible for 
these programs, because of discharge status or the complex rules 
relating length of service and the era in which a veteran served. This 
has been further complicated by recent statements by VA. Our hope is 
that some of these issues can be resolved by Congress; and that better 
coordination of discharge upgrade programs carried out by veterans 
service organizations with homelessness programs will resolve the 
issues for some; and that HUD-funded and other programs can, despite 
the financial stress that they are under, re-house the rest.
    Step three: Go to scale with program capacity. Step three was to 
fund those various interventions at the scale necessary to get the job 
done. As of this writing, VA budget requests and Congressional 
appropriations are on the verge of getting this done as well. Our 
estimate is that if Congress funds VA's FY 2015 budget request, it will 
finish the job of putting money on the table for communities to be able 
to provide housing, through HUD-VASH, GPD, and SSVF, for every veteran 
who experiences homelessness today and through the end of 2015. SSVF is 
the newest of these programs, and it has proven to do exactly what it 
sets out to do. VA has requested permission to move funding from other 
parts of its budget to increase grants to communities for SSVF, based 
on the latest solid data about what is needed.
    Step four: making it work at the community level. That brings us to 
step four, which is for every community to organize itself so that 
every homeless veteran is located, identified, and matched up with the 
right intervention to end his or her homelessness; and that these 
interventions work at peak efficiency, focused on quickly re-housing 
every homeless veteran they serve. We as a country are in the process 
of taking that step. VA is mobilizing its staff at local medical 
centers to make this happen. Mayors are taking part in campaigns to get 
other mayors to commit to this. Providers from the HUD-funded 
homelessness system are reaching out to VA-funded providers to share 
information and coordinate their work. The Alliance, based on years of 
work with communities that have succeeded in reducing the number of 
people who are homeless, believes that there are five key things that 
need to happen at the community level:

        <bullet> Leaders in each community need to oversee the effort, 
        using a solid plan and data to monitor progress.
        <bullet> Communities need to set clear numerical goals for how 
        many veterans need to be housed, how quickly.
        <bullet> Leaders, program operators, and others need to be 
        accountable for taking the specific actions they have committed 
        to.
        <bullet> Proven strategies need to be implemented in a skillful 
        way: outreach, crisis housing, rapid re-housing, permanent 
        supportive housing, and a coordinated system to ensure that 
        each veteran gets access to the program that's right for him or 
        her.
        <bullet> Leaders need to communicate with the entire community 
        about what is getting done, and what help is needed, 
        particularly by landlords and employers in the community.

    VA needs to make every possible effort to get its employees, 
grantees and contractors behind making sure that these five things are 
happening. VA has a number of efforts under way to provide technical 
assistance that will help make that happen.

Making Sure Homelessness Stays Ended

    When these four steps are complete, there will be few if any 
veterans who remain homeless on a given night. Which leads to the next 
step, the first step beyond veterans homelessness--to put in place a 
system that will find vulnerable veterans before they ever become 
homeless, and prevent their homelessness entirely. We are quite a way 
from having such a system. For the time being, ending homelessness will 
mean that while additional veterans may become homeless, as soon as a 
homeless veteran is discovered, help is there to provide whatever is 
needed in order to end that instance of homelessness. Programs to find 
veterans who become homeless, ensure their safety, and rapidly rehouse 
them will need to continue in place. This system will need to 
transition over time into an effective system of homelessness 
prevention. In the end, a prevention system will employ the kind of 
research and data analysis that the National Center already has under 
way. It will require careful thought about the right kinds of 
interventions, and how they should be targeted to veterans who would 
most likely become homeless without them. It will require work by this 
Committee and others to redeploy these resources so that we can all 
say, never another homeless veteran.

Congress's Part

    Besides oversight of the ongoing effort, there is work for Congress 
to do in order to bring this result about. Most important are the 
following:
    Ensuring that funding remains available. The appropriations 
committee has responded well to VA's budget requests for these efforts. 
There is, however, great uncertainty over the federal budget over the 
next few years. As those discussions take place, it will be important 
to stand behind the work to end veterans homelessness.
    Short-range fixes. There are some minor changes needed to federal 
statutes to remove certain barriers to implementation. These changes 
should be made via the earliest possible legislative vehicle. They are 
the following:

        <bullet> Provide VA with more flexibility to use funds for the 
        programs that are needed most at the time. The current limit of 
        $300 million per year for SSVF, in particular, underfunds this 
        program and should be raised to ``such sums as are necessary.''
        <bullet> Codify existing eligibility rules for VA homelessness 
        programs. For many years, the GPD and now the SSVF program have 
        served homeless veterans with various other-than-dishonorable 
        discharges, even if, because of complicated rules regarding era 
        and length of service, the veterans are not eligible for the 
        full range of VA health services. A recent communication from 
        VA, now suspended, called this practice into question, based on 
        a new reading of statutes. Estimates by providers indicate that 
        as many as 15 percent of homeless veterans would be left 
        without help from these effective programs is this ruling were 
        to go into effect. Congress should at least clarify that these 
        veterans are eligible for these homeless services.
        <bullet> Authorize the National Center on Homelessness Among 
        Veterans. As noted above, this Center provides a forum for 
        expert examination of VA and other data and research, ensuring 
        that VA's practices are informed by the best possible analysis. 
        To have it authorized in statute would ensure ongoing support 
        as the U.S. makes the challenging transition from solving the 
        problem of veterans homelessness, to ensuring the problem never 
        recurs.
        <bullet> Ensure VA has waiver authority to allow changes in 
        GPD. Many GPD providers are finding that reductions in the 
        number of homeless veterans, and the focus by VA on moving 
        further in that direction, are causing severe difficulties. 
        Congress should provide VA with waiver authority to allow GPD 
        providers in communities where veterans homelessness has 
        declined substantially to experiment with different models, 
        including very short term housing for veterans experiencing 
        housing crisis; and recovery housing for veterans who were but 
        are no longer homeless, but are recovering from addiction or 
        other severe difficulties.
    Longer term statutory change to prevent veterans homelessness from 
recurring. Existing VA programs that were designed to serve homeless 
veterans will need to do different things and serve different people 
when the number of homeless veterans is very small. They will, however, 
need to be there, to provide help when veterans have crises that leave 
or threaten to leave them without places to live. To move to a 
prevention-based homelessness system, there will need to be careful 
thought about what services are needed, which veterans need them, and 
how incentives can be established that will reward providers for 
effective work. This project should be undertaken and completed by the 
next Congress.
    Promote the local efforts. Every member of the U.S. Congress is a 
leader in his or her local community. As noted above, success at ending 
homelessness requires local commitment and local action. The Alliance 
encourages members of this Committee, and all members of Congress, to 
get involved with the issue locally, and do what they can to make sure 
that the communities they represent understand what they have to do to 
bring the number of homeless veterans down to zero.

    Steven R. Berg
Curriculum Vitae

Experience:

    Vice President for Programs and Policy, National Alliance to End 
Homelessness, October 1997 to present (previously Director of 
Programs).
    Senior Policy Analyst, Center on Budget and Policy Priorities, 
September 1996 to September 1997.
    Staff Attorney, Connecticut Legal Services, September 1990 to 
August 1996 (Norwalk and Bridgeport Offices).
    Executive Director, Legal Aid Foundation of Santa Barbara County, 
August 1987 to August 1990 (previously Staff Attorney).
    Staff Attorney, Contra Costa Legal Services Foundation, September 
1983 to August 1987.

Education:

    Harvard Law School, J.D. 1982.
    Lewis and Clark College, B.A. 1978.

Disclosure

    The National Alliance to End Homelessness is party to a subcontract 
to provide technical assistance to communities, as part of a contract 
with the U.S. Department of Veterans Affairs. Under this subcontract 
the Alliance will be paid a maximum of $130,000 for its work.

                                 <F-dash>

     Prepared Statement of John F. Downing, Chief Executive Officer

    Chairman Miller and members of the Committee, I am honored to be 
here today on behalf of Soldier On and the 3,815 veterans we serve each 
year. Soldier On has become the largest provider of supportive services 
to veterans in the United States and operates eight SSVF (Supportive 
Services for Veteran Families) grants throughout five eastern states. 
This was accomplished with early assistance from Congressmen Richie 
Neal and James McGovern of Massachusetts. With the help of Congressman 
Chris Smith of New Jersey and Congressman Chris Gibson of New York, 
Soldier On has also been able to expand its SSVF services to 36 
counties in New York and 8 counties in New Jersey. In addition, Soldier 
On serves 76 Counties in Mississippi, 23 counties in Pennsylvania, and 
the four counties of Western Massachusetts.
    Next year, we are slated to increase our breadth of service and 
assist more than 5,315 veterans and family members with a special focus 
on the chronically homeless veterans whose lives are reduced by an 
average of 20 years compared to their stably housed counterparts.
    The Department of Veterans Affairs' goal to end veteran 
homelessness by 2015 was not a goal that could take place without 
examining and combatting the underlying effects of poverty that cause 
homelessness. The lack of safe, affordable housing with services on-
site has allowed veterans in poverty and those suffering from untreated 
and undertreated mental health and addiction disorders to be left 
forgotten and alone in their prolonged states of homelessness. 
Eliminating homelessness requires society to look at the causes of 
poverty, which are rooted in a capitalist society and its impact on the 
standard of living and lack of educational/vocational training 
opportunities. The reality is that our goal has been to bring each 
homeless veteran back to the center of their life.
    With great help from the National Director of Homeless Programs, 
Lisa Pape, Soldier On became a leading Grant/Per Diem shelter bed 
provider for the VA and realized that we needed to provide veterans 
with a stable living facility with services delivered where they live. 
Soldier On has built a first of its kind limited equity cooperative in 
Pittsfield, Massachusetts that has become home for 39 formerly homeless 
veterans. The safe, sustainable, affordable housing development was 
honored with a HUD Doorknocker award in 2011 for its quality and 
innovation in assisting veterans. Transportation and case management, 
along with medical and mental health services are delivered to each 
veteran where he or she lives so that appointments are met and the 
veteran receives the support necessary to ensure success and dignity. 
Currently, Soldier On is in the development phase of constructing eight 
more of these facilities throughout the East Coast including one on the 
grounds of the VA in Leeds, MA. This enhanced use lease project 
received great support from Paul Macpherson and will utilize VAi2 funds 
and will be a first of its kind project in which the VA and Soldier On 
will partner to serve veterans in limited equity units of their own.
    Soldier On has made a commitment to partner in SSVF with agencies 
which have a history with tenancy preservation and housing search 
upgrades for eligible veterans as well as mentoring programs that train 
and enable veterans to provide services to keep them safely housed. We 
couple these services with a housing resiliency stabilization program 
that works with ``high risk'' veterans in need of rapid rehousing and 
support. These veterans can call into our hotline which is staffed 24 
hours of the day so that a case manager can be sent to a veteran's home 
within 48 hours to address their individual needs. As a result of this, 
we found our costs were driven down. These SSVF supportive services 
cost an average of $2,400 to $4,400 for at-risk veterans in need of 
housing who are not getting VA care compared to the $42,000 it costs 
for a veteran who is in GPD care.
    The VA is continuing to try to provide services using a medical 
model which does not and cannot help all homeless and at-risk veterans, 
and often leaves the most disconnected of them unserved. Following a 
model promoted by Vince Kane and the VA National Center on Homelessness 
Among Veterans in Philadelphia, we must divert the current VA funding 
to proactive programs such as Housing First with services delivered to 
veterans where they live. The VA needs to become more community based 
and responsive to partnering with community providers in offering 
integrated housing, healthcare and employment services where the 
veteran lives so that we can create an environment in which veterans 
can heal. We must look at the mind, body, and spirit together. We can't 
just divide a person into parts and disorders that we can treat in 
different silos. This creates a cost system that is dehumanizing and 
degrading to the men and women who served our country. Delivering 
services to people where they live eliminates decompensating episodes, 
non-compliance, and relapse.
    By providing veterans with Housing First, services delivered to 
where they live, and training for employment opportunities, we can 
strengthen our veteran communities and restore the dignity and support 
that has been taken from veterans after years of neglect and 
disservice.
    Thank you for your time.
    John F. Downing, Chief Executive Officer Soldier on, 421 North Main 
Street Building 6, Leeds, MA 01053, 413-822-8364
    The Fight Doesn't End When They Get Home,
    421 North Main Street Building 6 Leeds, MA 01053 (413) 582-3059 and 
360 West Housatonic Street Pittsfield, MA 01201 (413) 236-5644 
www.wesoldieron.org

 Prepared Statement of Phil Landis, President and CEO Veterans Village 
                              of San Diego

    As a matter of disclosure you should be aware that I am a member of 
the VA Advisory Committee on Homeless Veterans and I am neither 
speaking for the VA nor the Advisory Committee today.
    VVSD is a nationally recognized non-profit and non-governmental 
organization that has served veterans since 1981. Using five pillars: 
prevention, intervention, treatment, aftercare, and employment 
services, VVSD assists veterans who have substance abuse and mental 
health issues, including men and women recently returned from Iraq and 
Afghanistan. Working with addiction case managers and mental health 
professionals, residents rebuild lives, repair relationships, and 
return to society as productive citizens.

Veteran Treatment Center (VTC)

    Factors underlying Veteran homelessness such as mental health 
issues and substance use disorders are often related to conditions and 
experiences veterans encounter during their time in service to our 
country. (e.g., Military Sexual Trauma (MST), Combat injuries treated 
with opiates). All too often, the very medication used to treat their 
pain leads to a physiological dependency on opiates. When the opiate 
medication is stopped, many experience withdrawal symptoms and seek out 
ways to `self-medicate'. Unfortunately, many of these men and women 
``treat'' their withdrawal symptoms by using street drugs, such as 
heroin. This predictable path often results in failed drug screens and 
separation from military service. They are often denied honorable 
discharge making them ineligible for VA Healthcare benefits. This 
administrative separation results in lost jobs, lost income, lost 
housing, and lost benefits which results in addicted veterans being 
homeless on the streets and unable to obtain lifesaving services. The 
VA is committed to three month long research studies with veterans to 
determine new evidence based practices and treatment protocols. These 
12 week group treatment research programs unfortunately do not provide 
for ongoing individual therapy or follow up.
    The emphasis on permanent housing first is an admirable and 
reasonable idea for many homeless veterans. However, for veterans with 
co-occurring disorders, housing without treatment is a major risk 
factor for those in need of higher level of services. The absence of 
Shelter Plus Care options for these homeless veterans makes remaining 
sober and stabilized on psychotropic medications nearly impossible if 
housed alone. If untreated or unmanaged, these diseases are progressive 
and life threatening.

Citation:

    Protective Factors and Risk Modification of Violence in Iraq and 
Afghanistan War Veterans. (767-773) Eric B. Elbogen, PhD.; Sally C. 
Johnson, MD; H Ryan Wagner, PhD; Virginia M. Newton, PhD; Christine 
Timko, PhD; Jennifer J Vasterling, PhD; and Jean C. Beckham, PhD. 2012 
Physicians Postgraduate Press, Inc.
    This study shows that treatment and rehabilitation services such as 
those offered at VVSD support that `` . . . clinical intervention 
directed at treating mental health and substance abuse problems, 
psychosocial rehabilitation approaches aimed at improving domains of 
basic functioning and psychological well-being may also be effective in 
modifying risk and reducing violence among veterans.''
    Although the VA provides comprehensive medical care to those who 
meet the criteria for immediate services, veterans with less urgent 
problems are not viewed as a priority and have two choices: (1) Wait 
several months for an appointment or (2) be seen at the hospital 
Emergency Department. This results in veterans feeling devalued, acute 
problems not receiving necessary medical attention, and excessive cost 
for emergency room care that could have been handled on an urgent care 
basis. An urgent care walk-in system is desperately needed to address 
the day to day medical issues veterans experience.
    Many medical providers working at the VA seem to lack in-depth 
knowledge about substance use disorders and the risks involved with 
prescribing large amounts of controlled substances. (e.g., one day 
outpatient procedure results in a veteran filling his prescription for 
180 Oxycontin).

Grant Per Diem and Employment

    The VA is putting most of their Dollars into Rapid-Rehousing & 
VASH. They have eliminated new funding for GPD. GPD funding focuses on 
treatment and employment combined with transitional housing. I feel 
there is a need for both. The VA continues to fund existing GPD 
Programs which are essential to serving the range of needs of homeless 
veterans. The SSVF Program requires that GPD referrals be made during 
the first 30 days of living in such programs and requires all GPD 
veterans secure permanent housing within 90 days. This is often too 
early to know if SSVF is an appropriate referral source and should be 
reviewed as a mid-course correction. HUD has put more emphasis in 
recent years on reducing the length of stay for homeless people 
(including veterans) who reside in transitional housing programs which 
may not always be in the best long term interest of some veterans.
    Joint HVRP/HUD: These 2 programs work well together. HVRP is 
focused on veterans securing jobs. HUD is focused on Housing for 
Homeless Veterans and other homeless people. The challenge is that with 
the high rate of PTSD and unemployment among younger veterans, evidence 
suggests there is a need to increase HVRP funding.

    Supportive Services for Veteran Families (SSVF)

    Since the inception of our Supportive Services for Veteran Families 
(SSVF) Program in 2013, we have to date enrolled 180 veteran households 
who were homeless or at risk of becoming homeless. Of the 180 veteran 
households, we were successful in placing 90% of these families into 
permanent housing. We've seen that more and more veterans are 
struggling to find employment and it has become even more difficult for 
them to secure sustainable income when there is not a roof over their 
head. The SSVF program is a great tool in fighting homelessness amongst 
the veteran population. The program prevents homelessness amongst 
veteran families and works with those who are homeless to rapidly enter 
permanent housing utilizing the Housing First model; this model is 
centered on placing homeless families into permanent housing, and then 
providing the appropriate services tailored around addressing their 
housing barriers.
    This model works very well for the Post 9/11 generation who only 
need a ``hand up''. Many of the Post 9/11 veterans that come across 
SSVF seeking services don't need the totality of our assistance. One of 
the benefits of the Housing First model is that the singular focus is 
on addressing the participant's housing crisis. However, we've seen 
that SSVF participants who are not ready to address their primary cause 
of homelessness, whether it's substance abuse or mental health issues, 
are not ready to maintain long term housing stability. Therefore, 
having the option to be in a formal treatment setting or transitional 
housing program benefits them in the long run and gives them the 
opportunity to work on their barriers prior to obtaining permanent 
housing.
    One of our goals at VVSD is to break the cycle of homelessness 
amongst veterans and their families. In order for us to succeed in our 
efforts, we think it's crucial that we address the various reasons 
veterans become homeless. Not all veterans are ready to sustain 
themselves in housing and not every veteran will have substance abuse 
or mental health challenges, but having both SSVF and the VVSD Veteran 
Treatment Center in the same agency allows VVSD to make a difference in 
the veteran community. One size does not fit all and homeless veterans 
deserve the opportunity to choose the program that is most appropriate 
to meet their needs.
    In conclusion: At Veterans Village of San Diego (VVSD), we believe 
intensive treatment leads to self-sustaining independence, the 
maximizing of human potential and a meaningful, fulfilling life. Our 
veterans are worthy of nothing less. Furthermore, we believe in 
providing services tailored to the veteran's needs and desires 
utilizing a client-centered approach focused on addressing their 
primary causes of homelessness.
    Respectfully,
    Phil Landis, President & CEO

                                 <F-dash>

               Prepared Statement of Dr. Casey O'Donnell

    Good morning Chairman Miller and esteemed committee members. My 
name is Dr. Casey O'Donnell. I am currently the Chief Operating Officer 
of Impact Services Corporation in Philadelphia. For the last 20 years 
Impact has been providing both housing and employment focused programs 
to homeless Veterans who suffer from both mental illness and alcohol 
and/or drug abuse. Impact's current continuum of housing include one-
hundred fifty (150) beds of supportive transitional housing under the 
VA's Grant and Per Diem (GPD) Program and supportive permanent housing 
under HUD's Supportive Housing Program (SHP). Impact's program was one 
of the first and is one of the few programs in the nation exclusively 
serving dually diagnosed formerly homeless Veterans. Since, 1994, 
Impact has also been providing employment services to over three 
hundred (300) homeless Veterans annually under the Department of 
Labor's Homeless Veteran Reintegration Program (HVRP). In addition to 
these programs, Impact has recently received a ``Surge'' Priority 1 
grant under the VA's Supportive Services for Veterans Families (SSVF) 
Program and Impact has been a partner in collaboration with Project 
HOME and the Veterans Multi-services Center in Philadelphia in SSVF for 
the last three years. Over the last year, Impact has been extremely 
active in the VA's Boot Camp and Twenty-five Cities initiatives working 
to end Veteran homelessness in Philadelphia. Finally, Impact will break 
ground on twenty-six units of affordable, permanent housing for low-
income Veterans and their families on Monday, December 15th. This new 
permanent housing for 26 Veteran families will be available in 
September 2015 and will contribute to ending Veteran homelessness. We 
are working in close collaboration with the VA National Center on 
Homelessness among Veterans to provide all of these services from a 
Trauma Informed Care model. Along with other community based housing 
providers I was invited to participate in the National Center's 
workgroup to implement Trauma Informed Care across the nation both 
within the VA and among community based partners. The National Center 
has been an invaluable collaborative partner in the provision of care 
to homeless veterans and the Center's work related to training and 
implementation will been critical to success. We believe that our 
testimony is derived from a place of competence and experience.
    Men and women who have proudly served our country through military 
service should not be allowed to suffer in their addictions and mental 
illnesses on the streets of any city for one night longer. It is all of 
our job to find Veterans a safe place to live, recover from trauma and 
substance abuse, and improve the quality of their lives. In fact it is 
believed by those of us who are providers that ``trauma informed care 
is necessary to eradicate homelessness among veterans''.
    Setting the deadline of December 31st, 2015 to end homelessness 
among Veterans has become a critically important milestone for our 
country. The deadline has provided us with a sense of urgency and 
dedication. The deadline is producing hard work, determination and 
teamwork where previously there was disconnection and a lack of 
accountability. Over the last eleven (11) months, in partnership with 
our many collaborative partners, we have placed 556 homeless Veterans 
in permanent housing in Philadelphia. We have approximately 540 
Veterans left to house before the deadline of December 31st, 2015.
    The goal of ending Veteran homeless in Philadelphia is within our 
sights.
    We are ending Veteran homelessness in Philadelphia by developing a 
``Safety Net'' system that ``catches'' Veterans before they become 
homeless, provides intervention when necessary to keep them housed, 
gets them housed again if they have slipped back into homelessness and 
most importantly, addresses their mental health challenges and/or 
addiction in an appropriate manner at whatever level needed as early as 
possible to prevent or address long-term homelessness. This safety net 
is critically important as we look at the Veterans of Iraq and 
Afghanistan who are potentially vulnerable, may be suffering, and may 
be headed towards homelessness. Research provided by the National 
Center on Homelessness Among Veterans suggests that this rapid safety 
net approach is allowing approximately 80% of Vets to stay housed after 
ninety days of case management and temporary financial assistance 
through SSVF. Recent data provided by the City of Philadelphia's Office 
of Supportive Housing also shows that the number of actual homeless 
Veterans on the streets and in many programs has decreased by 15% from 
2013 to 2014. We expect that percentage to dramatically decrease in 
2015 and to come to ``functional zero'' by January 2016.
    This Safety Net system has only been possible within the context of 
real partnerships that are being forged between the community and the 
VA as part of the Boot Camp and Twenty-five Cities Initiatives in 
response to the December 31st, 2015 deadline. These partnerships have 
brought HUD, the VA, local municipalities, housing authorities and 
community organizations like Impact, to a common table where systems 
have been changed by bringing two continuums (the City and the VA) into 
alignment on outreach and assessment and eventually on placement and 
retention to ensure that Vets are being moved into housing.
    Further, I would like to say that housing without jobs or increased 
benefits is only a short term strategy. Supportive housing integrated 
with programs to get Vets into jobs and/or access to benefits or 
increased benefits provides a long-term recipe for self-sufficiency. We 
would like to see the VA and the Department of Labor work closely to 
integrate community based job training and job development into the 
current housing activities funded for Veterans. A good place to start 
would be a pilot with community-based Veteran organizations like Impact 
to better integrate SSVF, GPD, and HUD-VASH housing with the HVRP 
Program.
    Finally, Impact currently operates four (4) Grant and Per Diem 
(GPD) programs that move homeless Veterans with a mental health 
diagnosis and drug and/or alcohol addiction through various stages of 
recovery to self-sufficiency according to their needs. Our program is 
currently full. It is full because there remains a critical need for 
GPD to provide stable housing and services for Veterans suffering from 
mental illness and substance abuse and/or dependency. Impact is 
extremely interested in working with Congress and the VA to test out 
several additional models of housing utilizing the VA's GPD program as 
the foundation of funding. Specifically, we would like to see a 
percentage GPD beds converted to provide supportive services and 
permanent (as opposed to only transitional) housing for formally 
homeless Veterans with mental health and substance abuse issues that 
require a higher degree of support than independent living can provide. 
We would also like to operate additional Safe Haven beds in 
Philadelphia that would have the ability to provide ``wet'' housing for 
chronic alcohol addicted veterans during a flexible period from ninety 
(90) days up to two (2) years. This will provide adequate time to work 
with the Veteran to get them stabilized and ready for recovery. 
Graduates of ``wet'' Safe Haven housing could move into Impact's 
current GPD transitional housing and eventually into independent living 
or supportive, permanent housing funded by HUD and/or the VA.
    In conclusion, on behalf of my colleagues at Impact, myself, and 
the veterans that we serve I would like to thank the members of 
Congress for this opportunity to testify.
    Sincerely,
    Casey O'Donnell,
    PsyD Chief Operating Officer Impact Services Corporation, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2d4e42494243434841416d44405d4c4e595e485f5b444e485e03425f4a">[email&#160;protected]</a>, 215-423-2944 ext. 152
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
